<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2020</title>
<body><pre>[Senate Hearing 116-]
[From the U.S. Government Publishing Office]



 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2020

                              ----------                              


                       WEDNESDAY, MARCH 27, 2019

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:41 p.m. in room SD-138, Dirksen 
Senate Office Building, Hon. Lamar Alexander (chairman) 
presiding.
    Present: Senators Alexander, Collins, Murkowski, Hyde-
Smith, Feinstein, Murray, Tester, Udall, Shaheen, and Coons.

                          DEPARTMENT OF ENERGY

                         Office of the Secretary

STATEMENT OF HON. RICK PERRY, SECRETARY


              opening statement of senator lamar alexander


    Senator Alexander. The Subcommittee on Energy and Water 
Development will please come to order. I apologize to my 
colleagues and to the Secretary, and to others for being a 
little late. I usually am not, but I am today, and that is my 
fault. So I'm sorry.
    Today we are going to review the administration's fiscal 
year 2020 budget request for the Department of Energy. This is 
the subcommittee's first budget hearing of the year. We'll have 
three additional hearings with the National Nuclear Security 
Administration, the Corps of Engineers, the Bureau of 
Reclamation, and the Nuclear Regulatory Commission over the 
next 5 weeks. Senator Feinstein and I will each have an opening 
statement. I will then recognize each Senator for up to 5 
minutes of an opening statement alternating between the 
majority and minority in the order in which they arrived. And 
we'll then turn to Secretary Perry for his testimony on behalf 
of the--on behalf of the Department of Energy. Then at the 
conclusion of Secretary Perry's testimony, I will recognize 
Senators for 5 minutes of questions alternating back and forth.
    Before I begin, I want to say again how much--what a 
pleasure it is to work with Senator Feinstein. We've been 
here--we've worked together as a team on this subcommittee for 
long enough to see some----
    Senator Feinstein. Since we were young.
    Senator Alexander. Since we were young, for long enough, 
and for long enough to see some significant results. We've--
many of the ideas which we've tackled have been hers. I mean, 
we've worked on trying to help the Department come to grips 
with runaway costs on big facilities, and we've succeeded on 
some big problems in Tennessee and in South Carolina, the 
latter thanks to the Secretary's leadership, and the first 
Secretary Moniz helped us with.
    We've had record funding for the Office of Science, funding 
our national laboratories for each of the last 4 years, I 
believe, in appropriations.
    We've maintained our commitment to have full funding for 
the inland waterway system and for our goals for harbor 
maintenance over those 4 or 5 years, spending the money on the 
inland waterway system that barges and other taxpayers that go 
through pay so that we can do that.
    Both during the Obama and Trump administrations we have 
worked with the Department of Energy to help capture and then 
lose and then regain our first-in-the-world status with 
advanced computing.
    So we've had steady, consistent funding for priorities in 
the Department, and that would not have happened without 
Senator Feinstein's leadership, her practical approach, her 
willingness to, even when we disagree, which we sometimes do, 
we usually find a way to come to a result, so I thank her for 
that.
    Senator Feinstein. What you want, the answer is yes.
    Senator Alexander. Good. Oh.
    [Laughter.]
    Senator Feinstein. Sorry.
    Senator Alexander. We'll have a recess and I'll talk about 
it with you. I do have something in mind.
    [Laughter.]
    Senator Alexander. But I really mean that. It's a 
pleasure--it's a pleasure to do that. Sometimes people look at 
Washington and don't--and all they see is the arguments, and I 
suggest that they consider Washington, DC, a split screen 
television set, and on one side you do have the acrimony, and 
on the other side you have what you see in this subcommittee 
and lots of other committees and subcommittees, and I thank the 
members of the committee for that.
    Now, I'll go through my testimony. I'll probably submit all 
of it for the--I will submit all of it for the record, but let 
me highlight parts of it.
    And let me begin by saying that early this week I proposed 
a New Manhattan Project for Clean Energy, a 5-year project with 
Ten Grand Challenges that would use American research and 
technology to put our country and the world firmly on a path 
toward clean and cheaper energy, and I have it in a nice little 
booklet here if anybody would like to see it.
    The Ten Grand Challenges are not just mine, they are 
largely gathered from the National Academies and from the 
Institute of Engineering and from other ideas, and they're 
familiar names, and they don't require large new pieces of 
legislation, they basically have to do with funding priorities 
from this committee and leadership from the Secretary and his 
Department.
    For example, advanced nuclear, natural gas, carbon capture, 
better batteries, greener buildings, electric vehicles, cheaper 
solar, fusion, advanced computing, and doubling energy research 
funding, the last two, computing and money, being the tools we 
need to do the others. And this agenda can be supported by 
anyone who believes climate change is real and humans help 
cause it, which I do, or who doesn't believe that. It can be 
supported by Democrats as well as Republicans. And it 
recognizes, in my set of beliefs, that if you believe climate 
change is a problem, there are two things that are important to 
know.
    One is that the United States leads the world in dealing 
with it. We have reduced greenhouse gases more over the last 15 
years than any other country by far, and the principal methods 
for that have been conservation and the use of natural gas.
    And second is the problem with climate change is not in the 
United States, it's with China, India, and the rest of the 
world. It's not pointing fingers, that's just a fact. They are 
the problem; we are the solution. We are reducing greenhouse 
gases; they are not because they are developing countries. And 
the way to solve the problem really is to use advanced 
computing and more money to focus on these Grand Challenges and 
show not just ourselves but the rest of the world how to 
produce large amounts of reliable clean energy. That will not 
only clean up the air, it will help deal with climate change, 
it will raise family incomes, and I think it's something that 
we can agree on. So I wanted to begin with that.
    I want to thank Secretary Perry for being here. This is his 
third year to testify before the committee. In my view, he's 
been an effective Secretary. He's tackled difficult problems. 
His political and leadership skills have helped us resolve 
problems that have festered for a while, and he keeps his head 
down, which a smart politician is wise to do in Washington, DC. 
And he responds to our questions and has time for us when we 
need it, and I thank him for that, thank him for his 
leadership. It helps to have a Secretary who knows what he's 
doing and knows the landscape when he arrives.
    I mentioned the record that our subcommittee has and the 
priorities that we funded, the money that we've provided the 
Office of Science, the funding we have provided for ARPA-E. 
We'll have more discussion about that.
    Mr. Secretary, you know the importance that I place on 
ARPA-E (Advanced Research Projects Agency-Energy), the Office 
of--and that a lot of us do.
    And particularly if we're going to have a New Manhattan 
Project for Clean Energy, we want to make sure that that agency 
and the Federal Government is properly funded to be an 
important part of that. And we provided $15.2 billion for 
NNSA's (National Nuclear Security Administration) record 
funding levels for weapons programs and reactors.
    The Department's budget request prioritizes supercomputing 
and includes $809 million to deploy exascale systems in the 
early 2020s. The United States, China, Japan, and the European 
Union all want to be first in the world in supercomputing and 
advanced computing because the stakes are high. It has 
everything to do with the materials that we use in our 
manufacturing, with our ability to simulate disasters before 
they happen, to simulate weapons without testing them, to 
simulate new advanced reactors before we build them. It has to 
do with finding waste in Medicaid. It has to do with finding 
terrorists, which is like finding needles in a haystack. We 
lost our position in advanced computing, but we have regained 
it. We are first in the world thanks to the Secretary, to 
President Trump, President Obama, and the last several 
Congresses.
    Today, nuclear power--I want to say a word about nuclear 
power. I mentioned the importance of dealing with climate 
change and clean energy for the rest of the world. There is not 
any way to think about practically doing that without nuclear 
power. I mean, it's 60 percent of our carbon-free electricity. 
It's 20 percent of all of our electricity in the United States. 
If we're going to slow the effects of climate change, we have 
to deal with it. If we want large amounts of reliable clean 
energy, we have to deal with it.
    But the cost of building reactors is too high, and the cost 
of operating some of them is too high. If we don't do something 
soon, nuclear power will be a relic in the United States. And 
we've seen what happens when that happens. In Germany, when 
they closed nuclear plants and replaced them with wind 
turbines, the prices of electricity went up to the highest 
prices in the European Union.
    So we need to demonstrate the potential of advanced 
reactors, enable them to get licensed, make sure they're 
available to replace the existing reactors. They have the 
potential to be a lot cheaper to build, safer to operate, and 
to produce a lot less waste.
    A key pillar of our national defense is a strong nuclear 
deterrent. And in my remarks, which I'll include in the record, 
I have much to say about that, I'd like to hear more about that 
today, but we'll be getting on to that with the NNSA hearing 
that we'll have. The one thing that I would say is I want to 
congratulate the Secretary and the Department for continuing to 
work with Senator Feinstein and with me, and the subcommittee 
on keeping the uranium processing facility on time, on budget.
    Solving the nuclear waste stalemate. We'll hear from--about 
that from Senator Feinstein, so I won't repeat her remarks 
except to say I agree with them. We have worked together for 
the last several years to try to move ahead on nuclear waste. 
You know, the nuclear waste is safely stored, in my opinion and 
in the opinion of the Nuclear Regulatory Commission. It amounts 
to about a football field of waste, so it's not that much 
material, but it needs to be moved to repositories.
    And we have a plan authored by Senator Feinstein which I 
cosponsor for interim storage. We have a plan for private 
storage, which the Department supports. And we have Yucca 
Mountain to deal with. And we need this year to either--to 
either just to decide what to do about Yucca Mountain. Either 
we're going to build it or we're not going to build it. And we 
can't just keep going on and have a permanent stalemate on 
nuclear waste and expect to have, (A) the products dealt with 
safely, and (B) to have any sort of nuclear industry in the 
United States.
    Senator Murkowski is a member of this committee, is 
chairman of the Energy Committee, and she is working on 
legislation that Senator Feinstein and I and Bingaman and 
Cantwell and Manchin and others have supported over the years 
to try to get a permanent solution authorized, but we can do 
some things in this Appropriations bill.
    So I will submit my entire comments for the record, but I 
want to say to the Secretary I look forward to working with him 
as we begin putting together this Appropriations bill and to 
hearing what his priorities are. I expect the Department will 
continue to fund projects consistent with congressional intent 
and the fiscal year 2019 Consolidated Appropriations Act. Since 
the Secretary was once an executive and had to deal with 
legislatures, he knows what we--what we mean by that back and 
forth.
    [The statement follows:]
             Prepared Statement of Senator Lamar Alexander
    The Subcommittee on Energy and Water Development will please come 
to order. Today's hearing will review the administration's fiscal year 
2020 budget request for the Department of Energy.
    Earlier this week I proposed a New Manhattan Project for Clean 
Energy, a five year project with Ten Grand Challenges that will use 
American research and technology to put our country and the world 
firmly on a path toward clean, cheaper energy.
    Meeting these Grand Challenges would create breakthroughs in 
advanced nuclear reactors, natural gas, carbon capture, better 
batteries, greener buildings, electric vehicles, cheaper solar and 
fusion.
    To provide the tools to create these breakthroughs, the Federal 
government should double its funding for energy research and keep the 
United States number one in the world in advanced computing.
    This strategy takes advantage of the United States' secret weapon, 
our extraordinary capacity for basic research especially at our 17 
national laboratories. It will strengthen our economy and raise our 
family incomes.
    As we review the Department of Energy's fiscal year 2020 budget 
request today and work on drafting the Energy and Water Development 
Appropriations bill, I will be keeping these Ten Grand Challenges in 
mind.
    I would like to thank Secretary Perry for being here today. This is 
Secretary Perry's third year to testify before the subcommittee.
    I also want to thank Senator Feinstein, with whom I have the 
pleasure to work with again this year to draft the Energy and Water 
Development Appropriations bill.
    Our subcommittee has a good record of being the first of 
appropriations bills to be considered by the Committee and by the 
Senate each year. For each of the past 4 years, Senator Feinstein and I 
have been able to have our bill signed into law.
    Last year, we worked together in a bipartisan way on the fiscal 
year 2019 Energy and Water Development Appropriations bill that was 
signed into law before the start of the fiscal year--the first time 
that happened since 2000.
    We provided $6.585 billion for the Department's Office of Science, 
the fourth consecutive year of record level funding, which supports 
basic science and energy research at our 17 national laboratories and 
is the nation's largest supporter of research in the physical sciences.
    The bill also provided $366 million for ARPA-E, to continue the 
important research and development investments into high-impact energy 
technologies--another record funding level in a regular appropriations 
bill.
    We also provided $1.3 billion for Department's Office of Nuclear 
Energy, which is responsible for research and development of advanced 
reactors and small modular reactors.
    Finally, the bill we passed last year provided $15.2 billion for 
the National Nuclear Security Administration, including record funding 
levels for our Weapons Program and Naval Reactors.
    This year, the Department of Energy's budget request is about $3.9 
billion below what Congress provided last year.
    I'm pleased that the Department's budget request prioritizes 
supercomputing, and includes approximately $809 million to deploy 
exascale systems in the early 2020's.
    Unfortunately, the budget request this year again proposes to 
decrease spending on federally funded research and development, 
terminates ARPA-E and the loan guarantee programs, and cuts other 
funding, specifically: the Office of Science by $1 billion; Energy 
Efficiency and Renewable Energy by $2 billion; Nuclear Energy by $502 
million; and Fossil Energy by $178 million.
    And that is why we are holding this hearing: to give Secretary 
Perry an opportunity to discuss the Department's priorities, so Senator 
Feinstein and I can make informed decisions as we begin to write the 
fiscal year 2020 Energy and Water Development Appropriations bill over 
the next few weeks.
    Governing is about setting priorities, and we always have to make 
some hard decisions to ensure the highest priorities are funded.
    Today, I'd like to focus my questions on five main areas, all with 
an eye toward setting priorities: prioritizing Federal support for 
science and energy research; maintaining a safe and effective nuclear 
weapons stockpile; demonstrating that we can build safe, affordable 
advanced reactors; keeping America first in supercomputing; and solving 
the nuclear waste stalemate.
    The Department of Energy's research programs have made the United 
States a world leader in science and technology, and these programs 
will help the United States maintain its brainpower advantage to remain 
competitive at a time when other countries are investing heavily in 
research.
    Today, nuclear power accounts for 60 percent of our carbon-free 
electricity and, if we are going to slow the effects of climate change, 
nuclear power will be necessary into the future.
    However, the cost to build and operate today's large nuclear 
reactors is too high.
    If we don't do something soon, nuclear power will not have a future 
in the United States.
    Advanced reactors have the potential to be smaller, cost less, 
produce less waste, and be safer than today's reactors.
    To demonstrate their potential, we need to build some of these 
advanced reactors, enable them to get licensed, and make sure they are 
available to replace the existing reactors when they come offline.
    Secretary Perry, I'd like to hear your views on this, including 
whether you think it would be helpful for the Department of Energy, 
working with the private sector and the National Laboratories, to 
manage a program that would build and demonstrate current advanced 
reactor technologies.
    A key pillar of our national defense is a strong nuclear deterrent. 
Last February, the administration issued an updated nuclear policy, 
called the Nuclear Posture Review.
    The updated Nuclear Posture Review recommends continuing many of 
the things Congress has been working on for the last several years--
things that I support, including continuing Life Extension Programs to 
make sure our current nuclear weapons remain safe and effective; and 
continuing to invest in the facilities we need to maintain our nuclear 
weapons stockpile. This includes the Uranium Processing Facility, the 
Plutonium Facility, and the facilities to process lithium and tritium.
    I'm pleased to know the Department continues to make progress on 
construction of the nuclear buildings for the Uranium Processing 
Facility, and I'll be asking some questions about that project today.
    The Nuclear Posture Review also calls for two low yield warheads to 
be added to the stockpile, largely in response to capabilities being 
developed by Russia and other countries, and I know the Department is 
working on this important issue.
    I'd like to hear more about that today, and look forward to hearing 
about the progress being made on the Uranium Processing Facility.
    China, Japan, the U.S. and the European Union all want to be first 
in supercomputing.
    The stakes are high because the winner has an advantage in advanced 
manufacturing, simulating advanced reactors and weapons before they are 
built, finding terrorists and saving billions of Medicaid waste, and 
simulating the electric grid in a natural disaster, and other progress.
    The U.S. regained the number one spot last year, thanks to 
sustained funding by Congress during both the Obama and Trump 
administrations.
    I am pleased that this budget request proposes to continue 
development of exascale supercomputers--the next generation of 
supercomputers--that will develop a system a thousand times faster than 
the first supercomputer the U.S. built in 2008.
    To ensure that nuclear power has a strong future in this country, 
we must solve the decades' long stalemate over what to do with used 
fuel from our nuclear reactors.
    Senator Feinstein and I have been working on this problem for 
years, and I'd like to take the opportunity to compliment Senator 
Feinstein on her leadership and her insistence that we find a solution 
to this problem.
    To solve the stalemate, we need to find places to build geologic 
repositories and temporary storage facilities so the Federal government 
can finally meet its legal obligation to dispose of nuclear waste 
safely and permanently.
    This year's budget request for the Department of Energy includes 
$110 million to restart work for Yucca Mountain repository and $6.5 
million to study ways to open an interim storage site or use a private 
interim storage site.
    I strongly believe that Yucca Mountain can and should be part of 
the solution to the nuclear waste stalemate. Federal law designates 
Yucca Mountain as the nation's repository for used nuclear fuel, and 
the Commission's own scientists have told us that we can safely store 
nuclear waste there for up to one million years.
    But even if we had Yucca Mountain open today, we would still need 
to look for another permanent repository. We have more than enough used 
fuel to fill Yucca Mountain to its legal capacity.
    So Senator Feinstein and I, working with the leaders of the 
Committee on Energy and Natural Resources, Senator Murkowski and then 
Senators Bingaman, Wyden, Cantwell, and now Senator Manchin, have a 
bill to implement the recommendations of the President's Blue Ribbon
    Commission on America's Nuclear Future, which we're working to 
reintroduce this year.
    The legislation complements Yucca Mountain, and would create a new 
Federal agency to find additional permanent repositories and temporary 
facilities for used nuclear fuel.
    But the quickest, and probably the least expensive, way for the 
Federal government to start to meet its used nuclear fuel obligations 
is for the Department of Energy to contract with a private storage 
facility for used nuclear fuel.
    Two years ago, you told this subcommittee that the Department of 
Energy has the authority to take title to used nuclear fuel, but you 
were hesitant to agree that it has the authority to store the used fuel 
at a private facility without more direction from Congress.
    I understand that two private companies have submitted license 
applications to the NRC for private consolidated storage facilities, 
one in Texas and one in New Mexico, and that the NRC's review is well 
underway.
    I look forward to working with Secretary Perry as we begin putting 
together our Energy and Water Development Appropriations bill for 
fiscal year 2020 and hearing what Secretary Perry's priorities are.
    I also expect that the Department will continue to fund projects 
consistent with Congressional intent in the fiscal year 2019 
Consolidated Appropriations Act.
    I will now recognize Senator Feinstein for her opening statement.
    Senator Alexander. And I will now recognize Senator 
Feinstein for her opening statement.

                 STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Thanks very much, Mr. Chairman, and 
thank you for your leadership of this committee and other 
efforts that you make so successfully.
    The administration's request for $31.8 billion, this is a 
$3.9 billion cut from fiscal year 2019. Of the cuts proposed, 
$3.3 billion come from applied energy programs, like renewable 
energy, energy efficiency, the Advanced Research Projects 
Agency, or ARPA-E. We funded those programs at $5.2 billion for 
2019. So their proposal amounts to a 65-percent cut, which I 
don't know that we can support, and I think we need to take a 
careful look of it--at it.
    Of the $1.8 billion that has been requested for applied 
energy, roughly 40 percent would be for nuclear, an industry in 
decline. That, to me, seems out of balance and leaves the other 
important programs woefully underfunded. In addition, the 
request would also cut $1 billion from the Office of Science. I 
feel these cuts are unacceptable, and I hope that Congress will 
reject them. These programs are too valuable to throw away, 
especially now as we are working to address climate change.
    We need to task and then depend on the Department of 
Energy. And they really need to do the following: develop new 
materials and technologies for carbon-free electricity, figure 
out how to capture the carbon that we do emit, help us adapt to 
changes in climate that are already happening.
    I would ask you just to consider the experience of what is 
going on in my State. Now, it's true it's a big State, 40-plus 
million people, fifth largest economy on Earth, but we are 
feeling the impact of climate change in a major way, 
particularly fire. In October 2017, California endured a series 
of wildfires that killed 44 people and destroyed more than 
6,400 homes.
    I visited the site of the fires in Santa Rosa and Sonoma 
County, and the intensity of the fire was such that in a 
subdivision nothing was left. The earth turned to sand, 
nothing, not a chimney, not a stove, not a refrigerator, and 
automobiles on the street were burned just to the basic steel 
was left. It was so hot. I called the head of CAL FIRE and I 
asked him, ``What's happening?'' What he said to me is the 
Santa Anas are blowing at 60-plus miles an hour, they are 
variable. We are outrun. We can't lay line. We're totally 
dependent on aerial fighting.''
    That year, 2017, was the worst season on record up to that 
point, but 2018 was even worse. More than 20,000 structures, 
including the entire town of Paradise, were destroyed with 
15,000 homes burned down. Eighty-five people were killed in a 
single fire, the Camp Fire, and 100 in total throughout the 
State. Altogether, more than 1.8 million acres burned in 
California in 2018. That's triple the average over the last 
decade, and it's not a problem unique to California. 
Nationwide, we saw 25-percent increase in acres burned last 
year--excuse the throat--relative to the 10-year average. In 
the last 3 decades, the area burned by wildfire in the western 
United States was twice what would have burned in the absence 
of climate change according to the Fourth National Climate 
Assessment. Now, these numbers are only going to grow worse if 
we don't cut our greenhouse gas emissions, and that depends, 
Mr. Chairman and Mr. Secretary and members, on the Department 
of Energy fulfilling its responsibilities for technology 
research and development.
    California, I think, is proof that acting on climate change 
does not come at the expense of the economy. No State has done 
more to cut emissions, and at the same time, we've grown to 
become the world's fifth largest economy. The State has 
mandated that 50 percent of its electricity must be from 
renewable sources by 2030, and we're on track to reach that 
deadline by 2020. That's 10 years ahead of schedule. From 
there, we are committed to be completely carbon neutral by 
2045. California will also be nuclear-free by 2025, 
contradicting those who contend that nuclear power is essential 
for fighting climate change.
    We have the most solar energy jobs in the Nation. We're 
home to leading universities conducting ground-breaking 
research on renewable energy and energy-efficient technology. 
Much of that work is done in collaboration with your 
Department, Mr. Secretary, through three--the three national 
labs in our State.
    I have seen firsthand how a strong response to climate 
change has strengthened the economy in my State, but I think it 
is time for the whole country to take at least some notice. 
Perhaps there is a model in our progress. The administration's 
proposed cuts in basic and applied research and development 
essentially, to me, abandoned any progress on fighting climate 
change. So I hope we can reconsider that.
    For me, there is no question out west that the climate is 
changing, and it means more fire everywhere. So we have got to 
harness the strength of American ingenuity to address this, and 
we need to create those millions of new jobs that could come 
while strengthening threatened industries that are critical to 
our future.
    So, Mr. Secretary, I look forward to your testimony.
    Thank you.
    Senator Alexander. Thank you, Senator Feinstein.
    Now, before the Secretary's testimony, I'm going to ask 
each Senator if you have an opening statement.
    Senator Collins.

                 STATEMENT OF SENATOR SUSAN M. COLLINS

    Senator Collins. Thank you very much, Mr. Chairman. Let me 
commend you in coming up with your Manhattan Project for Clean 
Energy. It is the kind of initiative that I think we need to 
see more of here.
    I want to thank both you and the ranking member for holding 
this hearing to review the fiscal year 2020 budget request for 
the Department of Energy. I look forward to serving on this 
subcommittee once again. And I'm confident that once again we 
will be able to produce another bipartisan funding bill because 
of the leadership of our chairman and ranking member.
    Thank you, Secretary Perry, for appearing before this 
subcommittee today. DOE (Department of Energy) performs a 
diverse array of vital functions, from helping to advance 
energy technologies to fostering science and innovation to 
bolstering nuclear security.
    I look forward to learning more about the Department's 
priorities and will plan to focus my questions on three 
important issues to the State of Maine. One is the elimination 
of the Weatherization Program, which I think is a huge mistake. 
Second is the exciting development of deepwater offshore wind 
technologies in the State of Maine. And third is a partnership 
on advanced manufacturing of composite materials that is 
between the Oak Ridge Laboratory and the University of Maine.
    I also am concerned about the significant cuts proposed for 
the wind energy program and the Office of Energy Efficiency and 
Renewable Energy. Those programs, along with the Weatherization 
Program, are absolutely critical, and I was very surprised to 
see that they were taking such a hit in this budget.
    Again, I look forward to our dialogue, Mr. Secretary.
    And I thank the chairman for the opportunity to offer a few 
remarks.
    Senator Alexander. Thank you, Senator Collins.
    Senator Tester.
    [No audible response.]
    Senator Alexander. Senator Udall.

                     STATEMENT OF SENATOR TOM UDALL

    Senator Udall. Thank you. I'll just be brief here because 
Secretary Perry and I had a good discussion before we started 
the hearing.
    And thank you so much, Secretary Perry, for being here. I 
just returned from a CODEL with Chairman Shelby to Sandia and 
Los Alamos National Labs. You've offered a strong budget for 
the National Nuclear Security Administration and for the labs, 
and New Mexico really appreciates that. However, I continue to 
be concerned with NNSA's insistence that it move forward with 
the plan to send more nuclear waste to WIPP (Waste Isolation 
Pilot Plant) than the State had originally agreed to accept, 
and then split the plutonium emissions between Los Alamos and 
South Carolina. More waste, higher costs, and fewer jobs does 
not sound like a good deal to me.
    The NNSA proposal to split the plutonium emissions would be 
close to double--it would be close to doubling the life-cycle 
costs. NNSA's own engineering report confirms this. The State 
of New Mexico and the new Governor will have to review DOE's 
permit to operate WIPP, which is up to--up for review in 2020, 
as you know, Mr. Secretary. If DOE expects New Mexico to 
cooperate about WIPP when no other State in the country is 
doing its part on nuclear waste, then DOE must treat New Mexico 
fairly, and we've had that discussion. We need strong cleanup 
funding to finish the job at Los Alamos, we need improved 
support for technology commercialization to diversify our 
economy, and we need to keep the labs' missions strong and 
stable and not subject to political moves.
    But I appreciate very much your discussions, and I'll have 
some questions on that. But I--I really appreciate the 
chairman's clean energy, and I think I'm going to ask you some, 
especially about ARPA-E, which I think you guys zero out, and 
we put additional money in.
    And I think your--your plan here, Chairman Alexander, the 
really positive thing about it is rather than a gimmick vote on 
the floor, you're seriously looking at real proposals, like 
Senator Collins has said, and things that I think we could find 
some common ground on. So I look--look forward to working with 
you on that. So thank you, and I yield back.
    Senator Alexander. Thank you, Senator Udall.
    Senator Murkowski, the Chairman of the Energy Authorizing 
Committee.

                  STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Thank you, Mr. Chairman. And my comments 
will be brief this morning because I'll have the opportunity to 
have the Secretary in front of the Energy Committee here in 
about 10 days or so, and I look forward to that as well.
    But I am pleased to follow on with Senator Cantwell and 
Senator Udall in acknowledging your very clear and concise 
outline of how we can move forward to make a difference when it 
comes to addressing the issue of climate and how we utilize not 
only today's technologies, but the technologies of tomorrow to 
help advance that, and that's why as I look through some of 
these areas of the budget, I do have a level of concern, 
whether it is the elimination of ARPA-E or what we see with 
regards to the cuts for the EERE fund, the Energy Efficiency 
and Renewable Energy. I think the more that we can push out in 
these areas with robust funding that help us not only with the 
pioneering here that we do so well in this country, but then to 
be able to share that with others, share these advanced 
technologies, and these are great opportunities for us.
    I do appreciate the leadership of you, Mr. Secretary, as we 
have looked to the issue of what we--how we deal with nuclear 
waste. That is something that on the appropriating side the 
chairman and the ranking member have been focused on, and on 
the authorizing side in the Energy Committee, we, too, have. 
And I look forward to really working with you or working with 
your team and our four corners here as we work to address this 
issue of nuclear waste. And I'm hopeful, as I look at your 
words here, you use the term specifically, a robust interim 
storage capability enabling near-term consolidation of nuclear 
waste. We have got to get moving. And we had an opportunity 
when we were in Houston at CERAWeek to have a good discussion 
about how we might move that forward, how we address the 
concerns that Senator Feinstein has raised repeatedly, that 
until--until we're really able to move forward with nuclear in 
this country, we have to address the waste.
    I'm introducing this week our Nuclear Energy bill, the NELA 
(Nuclear Energy Leadership Act) bill, which I would commend to 
colleagues here as we're focused on the advanced nuclear 
concepts and how we can get them moving. But I also recognize 
that we have an obligation to address the waste, and I look 
forward to continuing that with the chairman or with Senator 
Feinstein, and with Senator Manchin now on the Energy Committee 
in that ranking position.
    But I thank you for your leadership. And I'm going to ask a 
specific question about the Office of Indian Energy, but I look 
forward to the dialogue here.
    Thank you.
    Senator Alexander. Thank you, Senator Murkowski.
    Senator Shaheen.

                  STATEMENT OF SENATOR JEANNE SHAHEEN

    Senator Shaheen. Well, thank you, Mr. Chairman, and thank 
you very much for your New Manhattan Project for Clean Energy. 
I think it's long overdue, and I look forward to seeing it 
enacted into law. I also want to thank you and Senator 
Feinstein for your bipartisan cooperative approach to the work 
of this committee, I think it's made a huge difference, and for 
giving us a bill in 2019 that was the first funding for the 
Department of Energy secured before the budget year since 2009. 
I hope we can do the same thing again this year.
    I was disappointed, however, that the President's budget 
again suggests slashing the Department of Energy's Office of 
Energy Efficiency and Renewable Energy by 70 percent. It 
eliminates funding for a number of programs that have already 
been mentioned by a number of our colleagues for the 
Weatherization Assistance Program, the State Energy Program, 
and the Advanced Research Projects Agency, or ARPA-E. Those are 
all critical, I think, if we're actually going to build this 
new energy economy. And I hope that for fiscal year 2020, that 
the funding appropriated by Congress is going to build on what 
we did in 2019 because those investments I think are what are 
important to the future of this country.
    Thank you, Mr. Chairman.
    Senator Alexander. Thank you, Senator Shaheen.
    Senator Coons, welcome.

               STATEMENT OF SENATOR CHRISTOPHER A. COONS

    Senator Coons. Thank you, Senator Alexander, Mr. Chairman.
    Thank you, Ranking Member Feinstein.
    I just wish the press would pay attention to what's 
happening in this committee because you've got almost unanimous 
comments from Republicans and Democrats. You, sir, have led the 
way with a remarkable floor speech about the importance of a 
Manhattan Project, investing in renewable energy, solving some 
of the big energy challenges of this century, next-generation 
nuclear, carbon capture sequestration, advancing what we're 
doing with natural gas, and a whole bunch of renewables.
    I really wish the President's budget reflected that 
unanimity of view that we should be investing and leading in 
energy research globally. Instead, the President's budget 
eliminates ARPA-E, which I think has shown, and all of my 
colleagues have said has shown, remarkable efficacy at tackling 
and solving energy problems for this century, and it cuts back 
dramatically the Office of Energy Efficiency and Renewable 
Energy and the Office of Science. I think these are unwise and 
unnecessary cuts, and I look forward to this committee once 
again, in a bipartisan way, rejecting those cuts and, instead, 
increasing our investment.
    I am convinced there is an enormous market opportunity for 
the people of the United States. If we innovate in science, if 
we innovate in energy, and in particular, if we tackle the 
renewable energy, the low-carbon energy possibilities of this 
century, we cannot just tackle climate change, we can create 
millions of jobs and huge export opportunities for our country.
    So it's my hope that as we go through this process in 
appropriations this year, we will look at ways to not just 
reject these cuts, but to invest in a way that will make our 
country stronger and cleaner, and our world safer and more 
stable.
    And I really appreciate your bipartisan leadership, both, 
Mr. Chairman and Ranking Member, in getting this appropriations 
process done last year in time and hopefully stepping up and 
tackling these great opportunities for this century.
    Thank you, Mr. Chairman.
    Senator Alexander. Thank you, Senator Coons.
    Mr. Secretary, welcome. And sometime in your remarks, you 
might comment and remind us of the advantage to your Department 
of having a budget approved before year--fiscal year begins. So 
welcome.
    Since you've experienced one, we'd like to be reminded, on 
the management theory of catching someone doing something 
right, maybe you could remind us of what it was like and why 
it's important, and maybe we can do it again. Welcome.

                  SUMMARY STATEMENT OF HON. RICK PERRY

    Secretary Perry. Thank you, Mr. Chairman.
    To join with some of your colleagues, if I could just take 
a point of personal privilege, and you and Senator Feinstein, 
you both remind me of why the advice that my father gave me 
almost 40 years ago when he said that public service was a very 
honorable pursuit. You both reflect that and you make me very 
proud that I am part of this process, that I get to work with 
people like you two, and you both exhibit the better traits of 
the good angels out there. So to both of you, thank you for 
having been a real pleasure to work with. And with that, let me 
get into my prepared remarks. But to all of you, it's a great 
privilege to get to sit in front of this committee.
    This is, I will suggest to you, a darn exciting time to be 
at the helm in DOE. I look forward to working with each of you 
as we pass this budget that, Senator Coons, you appropriately 
point out, invests in the Nation's priorities in energy, 
science, and national security while continuing our shared 
support of innovations that have led to America's world-
leading, as the Chairman said, often overlooked progress in 
reducing energy-related emissions. When I appeared before this 
Committee last year, I committed to rebuild and restore our 
Nation's security, protect our critical electric grid and 
energy infrastructure, particularly from cyber threats that are 
out there, improve the resilience and the reliability of the 
Nation's electricity system, and continue to seek a Federal 
disposal solution for the Nation's nuclear waste.
    We also committed to invest in early-stage cutting-edge 
research and development, and to advance our leadership in 
exascale and quantum computing. I am proud to report to you 
that since then, DOE has advanced each of these goals. This 
budget request of $31.7 billion and seeks to build upon that 
great progress by making strategic investments that yield the 
best return on investment for taxpayers and that will benefit 
our country in the years to come.
    The budget is a request to the American people through you, 
their elected representatives. America's future, through energy 
independence, scientific innovation, and national security, 
that's what this budget is. As such, it represents a commitment 
from all of us at DOE to honor the trust of our citizens with 
increased stewardship, accountability, and a commitment to 
excellence. This request supports the Department's vast mission 
in a fiscally responsible way, makes clear that success will be 
measured not by the dollars spent, but by the results achieved 
on behalf of the American people. By investing in reliable, 
affordable energy, transformative innovation, national 
security, we are approaching the dawn of what I call the new 
American energy era, a time of energy abundance and security, 
and, yes, even independence. American energy independence used 
to be just a sound bite that people would throw out, but thanks 
to innovation, today it is a reality.
    The Department's world-leading science and technology 
enterprise generates the innovations that we need to fulfill 
our mission through support of cutting-edge research at our 17 
National Laboratories, at over 300 universities, many of which 
are in your States. We are expanding the frontiers of 
scientific knowledge and accelerating the pace of discovery to 
address our greatest challenges.
    This past fall, I fulfilled a commitment to visit all 17 of 
the Department's National Laboratories. I got to witness 
firsthand the brilliant work performed by the dedicated 
individuals at each of these sites. Each lab has a rich history 
of science and innovation, and together they have bettered 
countless lives around the globe.
    I am especially proud of the work the Labs are doing in 
collaboration with others to harness the power of our world-
class computers to maintain America's leadership in high-
performance computing, in advanced exascale computing, and push 
for breakthroughs in artificial intelligence. To do so, this 
budget proposes investments in early-stage research and 
development that will focus the intellectual prowess of our 
scientists and engineers on the development of technologies 
that the private sector can convert into commercial 
applications to improve the lives and security of all 
Americans.
    One example where this crosscutting research and 
development will be done at the Department is our Cybersecurity 
Institute for Energy Efficient Manufacturing, which will 
provide $70 million for early-stage research to help U.S. 
manufacturers remain resilient and globally competitive against 
cyberattacks.
    This budget also requests significant funding to modernize 
our nuclear security enterprise, further nonproliferation 
efforts, and propel our nuclear Navy at sea, as well as supply 
the power for the fleet of the future.
    As we work to include America's nuclear energy industry in 
our all-of-the-above strategy, we see great promise in next-
generation advanced reactor technologies. In the coming weeks 
and months, I look forward to working with you and your 
colleagues and your excellent staff and Congress on the 
specific programs mentioned in this testimony and throughout 
the Department.
    Congress has an important role in the path forward. I met 
with many of you already. I look forward to deepening our 
partnership for the benefit of the people that we all serve. As 
we move ahead in this new American energy era, you have my 
pledge that DOE will continue to be run efficiently, 
effectively, and that we will accomplish our mission-driven 
goals of advancing energy security, economic security, national 
security, for the American people.
    Mr. Chairman, thank you for your time.
    Each of you today, thank you for your service. And I look 
forward to attempting to answer any questions that you may 
have.
    [The statement follows:]
               Prepared Statement of Secretary Rick Perry
    Chairman Alexander, Ranking Member Feinstein, and Members of the 
Subcommittee, it is an honor to appear before you today to discuss the 
President's fiscal year 2020 Budget Request (``Budget Request'' or 
``Budget'') for the Department of Energy (``the Department'' or 
``DOE'').
    It continues to be a great privilege and an honor to serve as the 
14th Secretary of Energy.
    This Budget is a request to the American people through their 
representatives in Congress to secure America's future through energy 
independence, scientific innovation, and national security.
    As such, it represents a commitment from all of us at DOE that we 
will honor the trust of our citizens with increased stewardship, 
accountability, and commitment to excellence. For too long, government 
success has been measured by how much we spend on it. This Budget 
Request makes clear that success will be measured by how effectively 
and efficiently government is able to manage the precious resources 
entrusted to them by the American taxpayer to achieve its mission.
    When I appeared before this Committee last year, I committed to 
protect our critical electric grid and energy infrastructure from cyber 
threats; improve resilience and reliability of the Nation's electricity 
system; make progress on the Federal Government's responsibility to 
dispose of the Nation's nuclear waste; focus resources on early-stage, 
cutting edge Research and Development (R&D); advance exascale and 
quantum computing; address responsibilities for the cleanup and 
disposition of facilities; and, rebuild and restore our Nation's 
security.
    This fiscal year 2020 $31.7 billion Budget Request for the 
Department of Energy (``Budget'') focuses on advancing these 
commitments--from opening a New American Energy Era to sustaining our 
recent historic economic growth by investing in reliable, affordable 
energy, transformative scientific innovation, and national security.
    The Department's world-leading science and technology enterprise 
generates the innovations needed to fulfill our missions. Through 
support of cutting-edge research at our 17 National Laboratories and at 
over 300 universities across the Nation, we are expanding the frontiers 
of scientific knowledge and laying the groundwork for new technologies 
to address our greatest challenges.
    When I became Secretary of Energy, I made a promise to visit all 17 
of the Department's National Laboratories. I am pleased to report that 
I have fulfilled that promise and have witnessed first-hand the 
innovative and brilliant work performed by the dedicated individuals at 
each of these sites across the Nation. The National Laboratories are 
doing outstanding work in many areas. Each has a unique, rich history 
of innovation across a broad scope of scientific expertise, and the 
record of collaboration across the National Laboratory system--which 
makes its impact greater than the sum of its parts--has bettered the 
lives of millions across the globe.
    For example, in 2018, the National Laboratories won 32 of the 
prestigious R&D 100 Awards, including technologies regarding new 
materials, protecting the environment, incorporating renewable energy 
reliably to the electric grid, and sophisticated cybersecurity tools. 
These are just a few examples of the work the National Laboratories 
have done just last year to push the boundaries of research, 
development, commercialization, and national security.
    I am especially proud of the work the National Laboratories are 
doing in collaboration with other Federal agencies, universities, 
doctors, and researchers to harness the power of our world-class 
supercomputers to maintain America's leadership in High Performance 
Computing (HPC), advance Exascale computing, and push for breakthroughs 
in Artificial Intelligence (AI).
    To do so, this Budget proposes nearly $11 billion in early-stage 
R&D that will focus the intellectual prowess of scientists and 
engineers on the development of technologies that the ingenuity and 
capital of America's entrepreneurs and businesses can convert into 
commercial applications and products to improve the lives and security 
of all Americans. The Budget also invests in laboratory infrastructure 
and test beds for future breakthroughs in energy. It prioritizes 
funding to maintain the world-class nature of national laboratory 
facilities and better facilitate private sector demonstration and 
deployment of energy technologies.
                     securing against cyber threats
    In addition to nuclear security, our national security also depends 
on a resilient electric grid and successfully countering the ever-
evolving, increasing threat of cyber and other attacks on networks, 
data, facilities, and infrastructure. Among the most critical missions 
at the Department is to develop science and technology that advances 
these aims.
    At stake is continued U.S. economic competiveness and leadership, 
as well as the overall safety and security of the Nation. We need to 
understand the increasing and evolving natural and man-made threats and 
develop the tools to respond to those threats across our energy 
infrastructure.
    To that end, the Budget provides $157 million for the Office of 
Cybersecurity, Energy Security, and Emergency Response (CESER) to 
develop tools needed to protect the U.S. energy sector against threats 
and hazards, mitigate the risks and the extent of damage from 
cyberattacks and other disruptive events, and improve resilience 
through the development of techniques for more rapid restoration of 
capabilities.
    Securing against cyber threats means we must also protect against 
threats to the Department's own infrastructure in science, technology, 
and nuclear security. This Budget takes major steps to safeguard DOE's 
enterprise-wide assets against cyber threats. It provides $71 million 
for the Chief Information Officer directed funding to secure our own 
networks, modernize infrastructure, and improve cybersecurity across 
the DOE IT enterprise. Funding for cybersecurity in the National 
Nuclear Security Administration (NNSA) is increased to $208 million to 
enhance security for our nuclear security enterprise. In the 
Environmental Management program, we provide $37 million for 
cybersecurity at seven cleanup sites.
    This Budget provides the resources we require to secure DOE systems 
and energy infrastructure.
                       improving grid resilience
    As we protect our energy infrastructure from cyber threats, we also 
must improve the resilience and reliability of the Nation's electricity 
system. The Budget provides $183 million for the Office of Electricity 
to support transmission system resource adequacy and generation 
diversity. The Budget will explore new architecture approaches for 
electric transmission and distribution systems, including the 
development of the North American Energy Resilience Model that will 
provide unique and ground-breaking national-scale energy planning and 
real-time situational awareness capabilities to enhance security and 
resilience. The Budget continues to advance energy storage through the 
Advanced Energy Storage Initiative (AESI), including development of a 
new Grid Storage Launchpad aimed at accelerating materials development, 
testing, and independent evaluation of battery materials and systems 
for grid applications. In addition, the Budget supports R&D at DOE's 
National Laboratories to develop technologies that strengthen, 
transform, and improve energy infrastructure so that consumers have 
access to reliable and secure sources of energy.
         addressing the imperative of nuclear waste management
    The Budget includes $116 million, of which $26 million is in 
defense funds, to move ahead in fulfilling the Federal Government's 
responsibility to dispose of the Nation's nuclear waste. This request 
is dedicated to resuming regulatory activities concerning Yucca 
Mountain and initiating a robust interim storage program.
    The Budget Request supports functions necessary to support 
regulatory activities, including legal support to represent the 
Department as well as responding to litigation and other legal matters. 
The Budget also provides for technical and scientific work necessary to 
support and respond to any challenges in the regulatory process. 
Resuming regulatory activities at Yucca Mountain and committing to a 
robust interim storage capability for near-term acceptance of spent 
nuclear fuel, our Budget demonstrates the Administration's commitment 
to nuclear waste management and will help accelerate fulfillment of the 
Federal Government's obligations to address nuclear waste, enhance 
national security, and reduce future burdens on taxpayers. This also 
will increase public confidence in the safety and security of nuclear 
energy, thus helping nuclear energy remain a significant contributor to 
the country's energy needs for generations to come.
                   energy independence and innovation
    The Budget requests $2.3 billion in funding for energy independence 
and innovation. Within the applied energy program offices, the fiscal 
year 2020 Budget focuses resources on early-stage, cutting-edge R&D 
conducted by the scientists and engineers at our 17 National 
Laboratories who are striving to develop the next great innovations 
that will strengthen American competitiveness and transform society as 
these breakthroughs reach the private marketplace.
    The Harsh Environment Materials Initiative (HEMI) is a new 
coordinated effort within the Offices of Fossil Energy R&D (FE), 
Nuclear Energy (NE), and Energy Efficiency and Renewable Energy (EERE) 
to use common investments. This effort will coordinate interrelated R&D 
in materials, sensors, and component manufacturing R&D for advanced 
thermoelectric power plants between FE and NE.
    For example, NE's budget includes $23 million for the Nuclear 
Energy Enabling Technologies (NEET) Transformational Challenge Reactor 
program, which enhances the development of breakthrough technologies 
that provide the ability to manufacture small/micro advanced reactor 
components using additive manufacturing techniques. Investments will 
also be aligned with EERE's Advanced Manufacturing Office R&D in 
materials and manufacturing process research, as well as flexible 
combined heat and power systems.
    The AESI is a coordinated effort across DOE that will accelerate 
the development of energy storage R&D as key to increasing energy 
security, reliability, resilience, and system flexibility technologies. 
The ASEI will focus DOE's efforts to take a broad, more holistic view 
of energy storage as a set of capabilities with temporal flexibility in 
the conversion of energy resources to useful energy services. The 
initiative will develop a coordinated strategy for aligning DOE R&D for 
cost competitive energy storage services.
    The Budget supports, and makes for more efficient, programs focused 
on bringing technologies to the market in the Office of Technology 
Transitions, requesting a 7 percent increase from the fiscal year 2019 
enacted level. Through coordination with our Labs, these efforts will 
reduce costs to the taxpayer while at the same time providing an 
enhanced technology transfer program to transfer breakthroughs from the 
National Laboratories to the private sector.
Nuclear Energy
    The Budget for Nuclear Energy focuses funding on early-stage R&D, 
such as the Nuclear Energy Enabling Technologies program, which 
includes $23 million for the Transformational Challenge Reactor, at Oak 
Ridge National Laboratory, to continue to develop an advanced 
manufacturing technique to demonstrate a new approach to nuclear 
design, qualification, and manufacturing of advanced reactor 
technologies.
    The fiscal year 2020 Budget includes $215 million for the Reactor 
Concepts Research, Development and Demonstration program. Within this 
total, the Budget provides $100 million to put DOE on a path to 
construct the Versatile Advanced Test Reactor, a facility that would 
enable development and testing of advanced fuels and materials for the 
next generation of commercial nuclear reactors. This is one of the 
highest priorities for the Department. The Budget also provides $85 
million for early-stage R&D on advanced reactor technologies, including 
$10 million for the Advanced Small Modular Reactor R&D subprogram.
    Within the Fuel Cycle R&D program, the Budget requests $40 million 
for the high-assay low-enriched uranium (HALEU) Civil Nuclear 
Enrichment subprogram. This 3-year cost-shared subprogram is designed 
to demonstrate a specific U.S. enrichment technology that could produce 
HALEU. We understand that multiple reactor designs under development by 
U.S. advanced reactor developers will require fuel containing HALEU. In 
addition, the Budget requests $36 million for the Fuel Cycle R&D 
program's early-stage R&D work in support of industry's development of 
light water reactor accident tolerant fuels.
    Finally, the Budget for Nuclear Energy also supports a safeguards 
and security program with funding at $138 million for protection of our 
nuclear energy infrastructure and investments at Idaho National 
Laboratory facilities.
Fossil Energy Research and Development
    The Fossil Energy Research and Development (FER&D) program advances 
transformative science and innovative technologies needed for the 
reliable, efficient, affordable, and environmentally sound use of 
fossil fuels. Fossil energy sources currently constitute over 81 
percent of the country's total energy use and are critical for the 
Nation's security, economic prosperity, and growth. The fiscal year 
2020 Budget focuses 89 percent, or $501 million, on cutting-edge fossil 
energy R&D to secure energy dominance, further energy security, advance 
strong domestic energy production, and support America's coal industry 
through innovative clean coal technologies.
    FER&D will support early-stage research in advanced technologies, 
such as materials, sensors, and processes, to expand the knowledge base 
upon which industry can improve the efficiency, flexibility, and 
resilience of the existing fleet of coal fired power plants. The 
request also focuses funding on early-stage component research that 
will enable the next generation of high efficiency and low emission 
coal fired power plants that can increase the resiliency and 
reliability of the electric grid by providing low-cost reliable power 
24/7.
    Funding is also provided to support competitive awards with 
industry, National Laboratories and academia geared toward innovative 
early-stage R&D to improve the reliability, availability, efficiency, 
and environmental performance of advanced fossil-based power systems. 
For example, the Advanced Energy Systems subprogram will focus on the 
following six activities: (1) Advanced Combustion/Gasification Systems, 
(2) Advanced Turbines, (3) Solid Oxide Fuel Cells, (4) Advanced Sensors 
and Controls, (5) Power Generation Efficiency, and (6) Advanced Energy 
Materials. While the primary focus is on coal-based power systems, 
improvements to these technologies will result in spillover benefits 
that can reduce the cost of converting other carbon-based fuels, such 
as natural gas, biomass, or petroleum coke into power and other useful 
products in an environmentally- sound manner.
Energy Efficiency and Renewable Energy
    The Energy Efficiency and Renewable Energy budget requests $696 
million, including the use of $353 million in prior year balances, 
towards maintaining America's leadership in transformative science and 
emerging energy technologies in sustainable transportation, renewable 
power, and energy efficiency.
    The Budget emphasizes early stage R&D and other activities, which 
private industry does not have the technical capability to undertake. 
Knowledge generated by early-stage R&D to facilitate U.S. industries, 
businesses, and entrepreneurs to develop and deploy innovative energy 
technologies, and to gain the competitive edge needed to excel in the 
rapidly changing global energy economy.
    The request funds $105 million for the AESI, which takes a holistic 
approach to energy storage and develops electric grid technologies to 
create flexible generation and load, thereby increasing the reliability 
and resilience of the U.S. electric grid.
    The request supports DOE's Grid Modernization Initiative, which 
includes reliably integrating an increasing amount of variable 
generation into the electric grid through R&D infrastructure 
investments at the National Renewable Energy Laboratory (NREL) to 
accelerate the conversion of the National Wind Technology Center (NWTC) 
campus into an experimental microgrid capable of testing grid 
integration at the megawatt scale.
Strategic Petroleum Reserve
    The Department of Energy is responsible for the Nation's energy 
security, and the Strategic Petroleum Reserve (SPR), one component of 
that effort, protects the U.S. economy from disruptions in critical 
petroleum supplies and meets the U.S. obligations under the 
International Energy Program. The Budget includes $174 million to 
support the Reserve's operational readiness and drawdown capabilities. 
The Department is requesting authorization to deposit into the SPR 
Petroleum Account up to $27 million in proceeds from the sale of one-
million barrels of refined petroleum product (gasoline blendstock) from 
the Strategic Petroleum Reserve to fund the cost of drawdowns.
    The Budget also proposes to disestablish the Northeast Home Heating 
Oil Reserve (NEHHOR). In its two decades of existence, the NEHHOR has 
not been used for its intended purpose, and the Administration believes 
the continued taxpayer-funded expense of maintaining the reserve is 
unwarranted, particularly as the existing commercial storage contracts 
are up for renewal in March 2020. The Budget also proposes to 
disestablish the Northeast Gasoline Supply Reserve (NGSR). The NGSR has 
not been used since its establishment, and is not considered to be cost 
efficient or operationally effective. Proceeds of the combined sales of 
the NEHHOR and NGSR (estimated at $130 million in receipts, net of the 
$27 million retained for mandatory sale drawdown costs) will be 
contributed to deficit reduction.
Power Marketing Administrations
    The Budget includes $78 million for the Power Marketing 
Administrations (PMAs). The Budget proposes the sale of the 
transmission assets of the Western Area Power Administration (WAPA), 
the Bonneville Power Administration (BPA), and the Southwestern Power 
Administration (SWPA) and to reform the laws governing how the PMAs 
establish power rates to require the consideration of market based 
incentives, including whether rates are just and reasonable. The Budget 
also proposes to repeal the $3.25 billion borrowing authority for WAPA 
authorized by the American Recovery and Reinvestment Act of 2009.
                leading world-class scientific research
    The Department of Energy is the Nation's largest Federal supporter 
of basic research in the physical sciences, and the President's fiscal 
year 2020 Budget provides $5.5 billion for the Office of Science to 
continue and strengthen American leadership in scientific inquiry. By 
focusing funding on early-stage research, this Budget will ensure that 
the Department's National Laboratories continue to be the backbone of 
American science leadership by supporting cutting-edge basic research, 
and by building and operating the world's most advanced scientific user 
facilities, which will be used by over 22,000 researchers in fiscal 
year 2020.
Support for Core Research and Facilities
    We provide $921 million for Advanced Scientific Computing Research, 
a decrease of $15 million below the fiscal year 2019 enacted level. 
This funding will continue supporting the Nation's world-class high-
performance computers that make possible cutting-edge basic research, 
while devoting $500 million in the Office of Science to reflect the 
Department's plan to deploy an exascale computing system in calendar 
year 2021. The fiscal year 2020 Request also supports quantum computing 
R&D and core research in applied mathematics and computer science, and 
high-performance computer simulation and modeling.
    The Budget also provides $1.9 billion for Basic Energy Sciences, 
supporting core research activities in ultrafast chemistry and 
materials science and the Energy Frontier Research Centers. We will 
continue construction of the Advanced Photon Source Upgrade at the 
Argonne National Laboratory, and initiate the Advanced Light Source 
Upgrade project at the Lawrence Berkeley National Laboratory, and the 
Linac Coherence Light Source-II High Energy project at SLAC National 
Accelerator Laboratory. The operations of the light sources across the 
DOE science complex and supporting research across the Nation maintain 
U.S. world leadership in light sources and the science they make 
possible. The Budget also supports continued construction for 
Spallation Neutron Source Proton Power Upgrade and Second Target 
Station at Oak Ridge National Laboratory.
    The Budget requests $768 million for High Energy Physics, including 
$100 million for construction of the Long Baseline Neutrino Facility 
and Deep Underground Neutrino Experiment at Fermilab, $30 million below 
the enacted fiscal year 2019 level.
    We will continue to fund ongoing major items of equipment projects, 
including three new projects at the Large Hadron Collider: the High 
Luminosity Large Hadron Collider Accelerator Project; the High 
Luminosity ATLAS; and the High Luminosity CMS detector upgrade 
projects. By supporting the highest priority activities and projects 
identified by the U.S. high energy physics community, this program will 
pursue cutting-edge research to understand how the universe works at 
its most fundamental level.
    The Budget for the Office of Science provides $403 million for 
Fusion Energy Sciences, including $296 million for domestic research 
and fusion facilities and $107 million for the ITER project to continue 
to support delivery of the highest priority in-kind hardware systems 
contributions. For Nuclear Physics, the budget provides $625 million to 
discover, explore, and understand nuclear matter, including $40 million 
for continued construction of the Facility for Rare Isotope Beams and 
operations of facilities. For Biological and Environmental Research, 
the Budget includes $494 million to support foundational genomic 
sciences, including the Bioenergy Research Centers, and to focus on 
increasing the sensitivity and reducing the uncertainty of earth and 
environmental systems predictions.
Advancing Exascale Computing
    As I discussed last year, the Department's leadership in developing 
and building the world's fastest computers faced increasingly fierce 
global competition over the last decade. Maintaining the Nation's 
international primacy in high-performance computing is more critical 
than ever for national security, economic prosperity, and a continued 
leadership role in science and innovation.
    I am proud to say that, as of the present day, the Department is 
actively sustaining America's leadership in this vital area. As of 
November, the world's two fastest supercomputers were located at DOE 
National Laboratories--Summit at Oak Ridge and Sierra at Lawrence 
Livermore. In fact, the Summit system achieved the global number one 
ranking as the world's fastest system in June 2016, was delivered 9 
months ahead of schedule and $13.5 million below budget, and is another 
example of the DOE lab continued project management excellence. In all, 
the Department currently owns five out of the world's top ten 
supercomputers. In addition, teams from DOE's Oak Ridge and Lawrence 
Livermore National Laboratories captured the 2018 Gordon Bell Prize, 
the most prestigious award for achievement in high performance 
computing software and applications. These coupled achievements in both 
hardware and software are significant, since it is by sustaining 
integrated capabilities in hardware, software, algorithms, and 
applications--along with basic research in applied mathematics --that 
America will maintain leadership in this critical field.
    To cement America's leadership position, the Budget includes $809 
million to accelerate development of an exascale computing system, 
including $500 million in the Office of Science (Science) and $309 
million in NNSA. This reflects the Department's plan to deploy an 
exascale machine for the Office of Science in calendar year 2021 at 
Argonne National Laboratory, a second machine with a different 
architecture in the 2021-2022 timeframe at Oak Ridge National 
Laboratory, and provides support for the procurement of and site 
preparation for a third exascale system, architecturally similar to the 
second machine at Oak Ridge, delivered to NNSA at Lawrence Livermore 
National Laboratory in fiscal year 2023.
    To achieve these goals, the Science/NNSA partnership will focus on 
hardware and software technologies needed to produce an exascale 
system, and the critical DOE applications needed to use such a 
platform. This world-leading exascale program will bolster our national 
security by supporting the nuclear stockpile, while also supporting the 
next generation of scientific breakthroughs not possible with today's 
computing systems.
Quantum Information Science
    Even as we prepare to deploy exascale systems, we are pursuing 
research in Quantum Information Science (QIS), an emerging 
multidisciplinary area that has the potential to define the next 
frontier in information processing and a range of other fields. Our QIS 
effort is genuinely interdisciplinary, a $168 million investment 
involving all six major DOE Office of Science program offices: Advanced 
Scientific Computing Research (ASCR), Basic Energy Sciences (BES), 
Biological and Environmental Research (BER), Fusion Energy Sciences 
(FES), High Energy Physics (HEP), and Nuclear Physics (NP).
    The potential of QIS to contribute to a wide range of disciplines 
is striking. Quantum computing promises the capability to attack large 
problems that elude classical computing and to provide new insights 
into materials and chemistry through accurate modeling and simulation 
of quantum systems. In addition, QIS holds the potential of developing 
exquisitely sensitive quantum sensors, for applications ranging from 
biology to the effort to detect Dark Matter. Finally, QIS may hold the 
key to ultra-secure networking, at a time when cybersecurity is a 
mounting concern.
    The Budget provides $40 million to ASCR, BES and HEP to establish a 
new QIS center, which would integrate universities with National 
Laboratories, through investments across all six Science program 
offices. We are seeking to sustain U.S. leadership in this important 
and highly competitive area.
Artificial Intelligence/Machine Learning
    Artificial Intelligence (AI), including Machine Learning (ML) 
defines another critical cross-disciplinary activity, with the 
potential to contribute to advances across multiple fields. This is 
another rapidly developing area in which it is vital for America to 
maintain a leadership role.
    In a world awash with data, AI holds the promise of harnessing and 
deriving new insights from massive data sets. The massive quantities of 
data generated by DOE Office of Science user facilities such as X-ray 
lights sources are believed to provide a major opportunity for the 
development of new AI applications for data analysis.
    It is also believed that AI may provide a pathway to improving the 
performance of particle accelerators and other key facilities. The 
fiscal year 2020 Budget provides $71 million for AI/ML spread across 
all six Science program offices for both the application of AI/ML to 
research and the development of new AI/ML approaches and algorithms as 
well as $48 million requested in the fiscal year 2020 Budget for NNSA 
for AI.
Microelectronics
    By virtue of its leadership in supporting high-performance 
computing, as well as its longstanding sponsorship of research in 
materials science, the DOE Office of Science has been a major 
contributor over the decades to the development of microelectronics. 
Science has helped lay the fundamental scientific foundation for 
advances in these technologies, while partnering with industry in the 
development of new systems requiring new chips. This role is becoming 
increasingly important as we approach the end of Moore's Law and stand 
at the threshold of what is likely to be a new era in microelectronics. 
In an important new initiative, the fiscal year 2020 Budget provides 
$25 million for redoubled research efforts on microelectronics. The 
research will benefit from groundwork laid at an October 2018 DOE 
workshop on ``Basic Research Needs in Microelectronics,'' bringing 
together top experts and co-sponsored by ASCR, BES, and HEP.
Biosecurity
    As mentioned, back in 1986, the Department provided the original 
impetus and idea for the Human Genome Project, and later partnered with 
the National Institutes of Health, to successfully complete the 
sequencing of a human genome in 2000. Since then the Department's 
Office of Science has remained on the cutting-edge of genomics-based 
system biology, making major contributions to the continued advancement 
of the relevant technologies. These dual use technologies have now 
advanced to a point where they pose new and unprecedented security 
challenges.
    To address this growing challenge, the fiscal year 2020 Budget 
includes $20 million for BER for research related to biosecurity.
Isotopes
    One of the Department's important contributions to medicine and 
industry is the Isotope Development & Production for Research and 
Applications Program, known more simply as the DOE Isotope Program. The 
program, managed by Science's Office of Nuclear Physics, supports the 
production and development of production techniques, as well as 
radioactive and stable isotopes that are in short supply for research 
and applications. In doing so, it provides a vital contribution to 
research, medicine, and industry. The Budget provides $5 million to 
initiate a construction project for a U.S. Stable Isotope Production 
and Research Center at ORNL.
               fulfilling legacy cleanup responsibilities
    The mission of the Department's Environmental Management (EM) 
program is to complete cleanup of legacy nuclear weapons development 
and research sites. It is the largest program of its kind in the world 
and represents one of the top financial liabilities to the American 
taxpayer. EM is working collaboratively with regulators, Federal, 
State, and local governments, and others toward a future that drives 
cleanup toward completion safer, sooner and at a responsible cost. As 
EM is put on a sustainable path forward, the fiscal year 2020 Budget 
Request provides the resources necessary to build upon recent successes 
and bring a renewed sense of urgency to the program for meaningful and 
measurable progress at projects and sites throughout the cleanup 
complex.
    The Budget Request includes $6.5 billion for EM to address its 
responsibilities for the cleanup and disposition of excess facilities, 
radioactive waste, spent nuclear fuel, and other materials resulting 
from five decades of nuclear weapons development and production and 
Government-sponsored nuclear energy research. To-date, EM has completed 
cleanup activities at 91 sites in 30 States and Puerto Rico, and is 
responsible for cleaning up the remaining 16 sites in 11 States--some 
of the most challenging sites in the cleanup portfolio.
    The Budget Request includes $1.4 billion for the Office of River 
Protection at the Hanford Site for continued work at the Hanford Tank 
Farms and to make progress on the Waste Treatment and Immobilization 
Plant. This budget will continue progress toward important cleanup 
required by the Consent Decree and Tri-Party Agreement to include a 
milestone to complete hot commissioning of the Low Activity Waste 
Facility by December 31, 2023. The Budget also includes $718 million to 
continue cleanup activities at Richland. The Budget continues River 
Corridor decontamination and decommissioning activities including 
remediation of the highly contaminated 300-296 waste site under the 324 
Building. For Savannah River, the Budget provides $1.6 billion, $91 
million above enacted fiscal year 2019, to support activities at the 
site. This will include the Liquid Tank Waste Management Program, 
completing cold commissioning beginning operation of the Salt Waste 
Processing Facility, continued construction activities for Saltstone 
Disposal Unit #7 and #8/9 design and construction activities for 
Saltstone Disposal Unit #10-#12, and funding to support design and 
construction of the Advanced Manufacturing Collaborative facility.
    The Waste Isolation Pilot Plant (WIPP) is essential for the 
disposition of transuranic defense-generated waste across the DOE 
complex, and the Budget provides $398 million to safely continue waste 
emplacement at WIPP. The Budget Request will continue WIPP operations, 
including waste emplacements, shipments, and maintaining enhancements 
and improvements, and progress on critical infrastructure repair/
replacement projects, including $58 million for the Safety Significant 
Confinement Ventilation System and $35 million for the Utility Shaft 
(formerly Exhaust Shaft). These steps will increase airflow in the WIPP 
underground for simultaneous mining and waste emplacement operations.
    The Budget Request includes $348 million to continue cleanup 
projects at the Idaho site, such as the Integrated Waste Treatment 
Unit, and to process, characterize, and package transuranic waste for 
disposal at offsite facilities. It provides $429 million for Oak Ridge 
to continue deactivation and demolition of remaining facilities at the 
East Tennessee Technology Park, continue preparation of Building 2026 
to support processing of the remaining U-233 material at the Oak Ridge 
National Laboratory, and support construction activities for the 
Outfall 200 Mercury Treatment Facility at the Y-12 National Security 
Complex and design for a new On-Site Waste Disposal Facility to support 
cleanup.
    For Portsmouth, the Budget Request includes $426 million to 
continue progress on the deactivation and decommissioning project at 
the Portsmouth Gaseous Diffusion Plant, safe operation of the Depleted 
Uranium Hexafluoride Conversion Facility, and construction activities 
at the On-Site Waste Disposal facility. At Paducah, the Budget Request 
includes $277 million to continue ongoing environmental cleanup and 
depleted uranium hexafluoride (DUF6) conversion facility operations at 
the Paducah site. In addition, the fiscal year 2020 Budget Request 
supports activities to continue the environmental remediation and 
further stabilize the gaseous diffusion plant.
    The Budget continues funding of $128 million to address specific 
high-risk contaminated excess facilities at Lawrence Livermore National 
Laboratory.
    Together, these investments for EM will make significant progress 
in fulfilling our cleanup responsibilities while also beginning to 
address our high-risk excess facilities at NNSA sites.
national security through nuclear security: sustaining and modernizing 
                the nuclear stockpile and infrastructure
    Our national security rests upon the foundation of the Nation's 
nuclear security enterprise and the deterrent it provides. The Budget 
funds the overdue modernization of the nuclear stockpile and the aging 
infrastructure that supports it; strengthens key science, technology, 
and engineering capabilities that support stockpile modernization; 
reduces global nuclear threats through nonproliferation and 
counterterrorism initiatives; and designs and maintains safe and 
effective nuclear propulsion systems for the U.S. Navy for years to 
come.
    The Budget fulfills the President's vision of rebuilding and 
restoring our Nation's security through investments in the Department's 
nuclear security mission. The Budget provides $16.5 billion for the 
National Nuclear Security Administration (NNSA). Of this amount, the 
Budget Request includes $12.4 billion for Weapons Activities. This $1.3 
billion increase supports maintaining the safety, security, and 
effectiveness of the nuclear stockpile; continuing the nuclear 
modernization program; and modernizing NNSA's nuclear security 
infrastructure portfolio in alignment with the Nuclear Posture Review.
    The Budget includes $2.1 billion for our ongoing Life Extension 
Programs (LEP), Major Alteration, and Modifications, a $197 million 
increase. I am pleased to report that the W76-1 LEP completed its last 
production unit in December 2018. Final deliveries to the Navy will be 
completed by the end of this fiscal year. The W76-2 Modification, the 
low-yield variant of the W76, is on schedule, on budget, and will be 
completed consistent with Nuclear Weapons Council (NWC) direction. 
Funding for the B61-12 LEP and the W88 Alteration 370 will keep us on 
schedule to deliver the first production units in fiscal year 2020. The 
Budget also supports the Air Force's Long-Range Stand-Off program 
through an increase of $244 million from the fiscal year 2019 enacted 
level for the W80-4 LEP to deliver the first production unit in fiscal 
year 2025 of the cruise missile warhead. The request includes $112 
million for the W87-1 Modification Program, which will replace the W78, 
one of the oldest warheads in the stockpile, by 2030.
    The Weapons Activities Budget request also includes $309 million 
for NNSA collaboration with the Office of Science on the development of 
exascale computer systems; $778 million for the protection of 
personnel, facilities, nuclear weapons, and materials across the 
Department's nuclear security enterprise; and $232 million for 
information technology and cybersecurity protection.
    The infrastructure portion in Weapons Activities increases 
investments to modernize our nuclear infrastructure, improve working 
conditions of NNSA's aging facilities and equipment, and address safety 
and programmatic risks through facility and equipment recapitalization 
and the stabilization of deferred maintenance. In this Budget is $745 
million for construction of the Uranium Processing Facility, which is 
needed to replace deteriorating facilities at the Y-12 National 
Security Complex, as well as $123 million for the High Explosives 
Science and Engineering Facility at Pantex, $27 million for a Tritium 
Finishing Facility at the Savannah River Site (SRS), and $32 million 
for a Lithium Processing Facility at Y-12. The Budget also includes 
$168 million to support the Department's commitment to finishing the 
Chemistry and Metallurgy Research Replacement Facility Project, which 
is necessary to support the pit production mission and other actinide 
activities at Los Alamos National Laboratory (LANL).
    The highest NNSA infrastructure priority is re-establishing a 
plutonium pit production capability to meet military requirements, 
supported by numerous studies and analyses, of no fewer than 80 war 
reserve pits per year by 2030. Last May, the NWC endorsed NNSA's 
recommended alternative calling for plutonium pit production at LANL 
and SRS. This two-site approach bolsters the nuclear security 
enterprise's responsiveness and resiliency.
    The Budget also includes $2.0 billion for the Defense Nuclear 
Nonproliferation program to reduce global threats from nuclear weapons. 
This critical national security program prevents the spread of nuclear 
and radiological materials, and technologies, advances technologies 
that detect nuclear and radiological proliferation worldwide, and 
eliminates or secures inventories of surplus materials and 
infrastructure usable for nuclear weapons.
    The Budget invests $774 million at SRS in fiscal year 2020, a 76 
percent increase over fiscal year 2019. NNSA will continue termination 
activities for the orderly and safe closure of the Mixed Oxide Fuel 
Fabrication Facility Project. The Budget will also continue to pursue a 
dilute and dispose strategy to fulfill the U.S. commitment to dispose 
of 34 metric tons (MT) of plutonium and modernize SRS infrastructure to 
support the tritium supply chain.
    The Budget provides $372 million for Nuclear Counterterrorism and 
Incident Response, $53 million above the fiscal year 2019 enacted 
level, to work domestically and around the world to improve our ability 
to respond to radiological or nuclear incidents, in conjunction with 
other agencies in a broader U.S. Government effort.
    In the NNSA's Office of Naval Reactors, the Department has the 
ongoing responsibility to provide militarily effective nuclear 
propulsion plants for the Navy and to ensure their safe, reliable and 
long-lived operation. The Budget provides $1.6 billion to support the 
operation of the Navy's nuclear-powered fleet, the continuation of the 
Columbia-class reactor plant design, refueling of the land-based 
prototype reactor, and the construction of the Naval Spent Fuel 
Handling Facility.
    Today, nearly 45 percent of the Navy's major combatants are nuclear 
powered. The Department's role in propulsion plant design, spent fuel 
handling, and recapitalization is critical to the Navy's ability to 
conduct its missions around the globe.
    Finally, the Budget includes $435 million for Federal Salaries and 
Expenses at the NNSA. This $25 million increase is essential to 
ensuring our world-class workforce of dedicated men and women can 
effectively oversee NNSA's critical national security missions.
                  focusing priorities on core missions
    The Budget continues to focus the Department's energy and science 
programs on early-stage research and development at our National 
Laboratories to advance American primacy in scientific and energy 
research in an efficient and cost- effective manner.
    Also, in line with Administration priorities, the Budget terminates 
the Advanced Research Projects Agency-Energy, known as ARPA-E, and the 
Department's Loan Programs, while maintaining necessary Federal staff 
to oversee existing awards and loans. Termination of these programs 
will save over $850 million in fiscal year 2020 alone while 
significantly reducing financial risk to the taxpayer moving forward.
                               conclusion
    In conclusion, I reaffirm my pledge that the Department of Energy, 
along with our National Laboratories, will continue to support the 
world's best enterprise of scientists and engineers who create 
innovations to drive American security, prosperity, and 
competitiveness. The President's fiscal year 2020 Budget Request for 
the Department of Energy reflects the priorities to enhance our energy, 
economic, and national security today, while making strategic 
investments to accelerate the breakthroughs that will fuel America's 
tomorrow.
    In the coming weeks and months, I look forward to working with you 
and your colleagues in Congress on the specific programs mentioned in 
this testimony and throughout the Department. Congress has an important 
role in the path forward on spending decisions for the taxpayer, and I 
will, in turn, ensure DOE is run efficiently, effectively, and that we 
accomplish our mission-driven goals. Thank you, and I look forward to 
answering your questions.

    Senator Alexander. Thank you, Mr. Secretary.
    We will now move to a round of 5-minute questions. So we 
have several Senators here.
    Let me begin with this. One thing Senator Feinstein and the 
members of this committee have tried to do is to help the 
Department deal with large cost overruns. For example, with the 
Uranium Facility, we've gotten that down to a $6.5 billion 
target by 2025. With your leadership, Mr. Secretary, the MOX 
facility is now down to a different kind of process. It will 
probably be more in the neighborhood of $20 billion over its 
lifetime more or less.
    But I saw a figure the other day that makes those two 
projects look like peanuts. The Department says that the cost 
to clean up former Cold War sites is growing at an 
unsustainable rate, especially at Hanford, in Washington State. 
In January, the Department estimated that the cost to clean up 
Hanford was between--and let me pause for a moment for effect--
$323 billion and $677 billion for that one site. Now, that's 
not million, that's billion. So we thought we had done 
something when we got the Uranium Facility down to $6.5 billion 
and MOX down to $20 billion, but this says that one cleanup 
site is $323 billion to $677 billion. What is your reaction to 
that estimate, and what do you propose we do about that?
    Secretary Perry. Yes, Mr. Chairman, I was shocked, to say 
the least, I will tell you that there is really no reason for 
you to be sitting there in the chairmanship role and to be hit 
with that type of a number. One of the reasons is because when 
I came on to this job, and I've told you many times, and you've 
seen that from time to time, MOX is one of those where we had 
some tough decisions to make, but I rolled up my sleeves and 
worked with you all, and we did what not only Congress, but I 
think is in the best interest of the American people and the 
future of this country.
    Hanford is an example of not keeping your eye on the ball, 
I will suggest, and unlike the previous administration, we did 
the tough work to get the true picture of the time and the cost 
that it's going to take to complete this very important 
mission. And the status quo is not sustainable. So that's why 
we're taking a very aggressive approach to meet our ultimate 
goal of getting the waste out of there, and getting those 
Hanford tanks cleaned up, disposed of sooner, safer and at a 
reasonable cost.
    Senator Alexander. Within the time I have, I've got about a 
little over a minute left, just to underscore, the uranium 
facility is $6.5 billion over its life, the MOX solution more 
or less $20 billion over its life. This estimate is $323 
billion----
    Secretary Perry. Yes.
    Senator Alexander [continuing]. To $677 billion.
    I know looking back, Senator Feinstein, in the case of the 
uranium facility and MOX, we benefited from an independent look 
at the problem.
    Senator Feinstein. Yes.
    Senator Alexander. In that case, it was a red team the 
Department itself formed that took a look and came back within 
a few weeks really with suggestions that helped guide us and 
the Department toward a solution to get costs under control. 
Would a red team or a blue ribbon commission or some sort of 
independent look at this problem help the Department and then 
help the people of Washington know that one day this was going 
to actually get done and help the taxpayers know that it would 
be done at a reasonable cost?
    Secretary Perry. Yes. Senator, I think it's important to 
point out that we will continue to be working with the State of 
Washington on how to best achieve clean up particularly the 
high-level waste. Your proposal, is certainly interesting and I 
think it is in the right direction that we need to be going. 
And we are putting together an analysis of alternative over at 
the high-level waste facility.
    Senator Alexander. Okay.
    Secretary Perry. We are going to continue to work on that, 
but we'll also work with you on this approach that you lay out 
as well.
    Senator Alexander. Thank you. I want to stay within my time 
because we have several Senators here.
    Senator Feinstein.
    Senator Feinstein. Mr. Chairman--Mr. Secretary, Senator 
Alexander and I have been trying for the last 6 years to 
authorize the interim storage of spent fuel to try to break the 
nuclear waste stalemate. We understand that a permanent 
disposal site is needed, whether Yucca or somewhere else, but 
interim storage is a reasonable first step while we resolve 
what appear to be long-term issues. It's my understanding that 
a company in Texas and a company in New Mexico are pursuing 
licenses with the NRC (Nuclear Regulatory Commission). Do you 
support our legislative language authorizing a government or 
privately run interim storage facility?
    Secretary Perry. Yes.
    Senator Feinstein. And can you bring us up to date on the 
company in Texas and the company in New Mexico?
    Secretary Perry. Senator, I'll do my best to share with you 
what I know at this particular point in time. While I was the 
Governor of the State of Texas, we had a low-level commission 
that operated out in far West Texas just right on the New 
Mexico border in Andrews, Texas. The citizens of Andrews, and 
the surrounding area are very, very supportive of being a 
disposal site both of low-level waste, and I will suggest to 
you that transuranic waste, as well as high-level waste. There 
had been efforts to get the process going on that site. I can't 
speak to Senator Udall and I can't speak to New Mexico. You may 
be a better person to go to on that from the standpoint of 
speaking for New Mexico, but I've had this personal and 
professional relationship with the Andrews site.
    Senator Feinstein, here is what I think is really 
important. I know what the statute says and I am sworn to 
uphold the constitutional laws of this country, and Yucca is, 
at this point in time the site where high-level waste will go. 
Until Congress decides to change that, then that is where we 
are going to go. And as we were talking in the back, it costs 
this country $2 million a day, in damages that are being paid 
to utilities that are storing this high-level waste onsite. And 
I will suggest one of the ways that we can break that logjam is 
to change the wording that says the only entity that can take 
possession of that waste is the Department of Energy, and 
change that to where a private entity, a private company, can 
take possession of that, because I think that there are some 
private sector opportunities here, companies that can and 
should have the opportunity to bid for putting this into place.
    Senator Feinstein. Do you want to say something?
    Senator Alexander. No, no. Go ahead.
    Senator Feinstein. I think we would agree. We've been at 
this long enough and been stymied long enough that this appears 
to be the only practical course. And I think not taking any 
action is probably the worst course right now.
    Secretary Perry. Senator, if we collectively don't take 
action, what we have said to the American people is that we 
have decided on permanent disposal of high-level nuclear waste, 
and it is in the 39 States that it resides in today.
    Senator Feinstein. So are you willing to proceed? Do you 
need any action from us to proceed, or can you do it?
    Secretary Perry. Senator, if I could have done it by 
myself, I would have already done it. I understand how this 
process works fairly well. And to move past the logjam that we 
have currently in front of us, I think Congress has to change 
some statutes to give some clear direction for us, and when I 
am talking about us, I am talking about the country, not just 
DOE, but the country as a whole. What are the alternatives? 
They are going to require statutory changes.
    Senator Feinstein. Could--or let me ask the chairman. It 
seems to me that the people here really ought to ask for that. 
If the Secretary believes he needs our input, I would think it 
would be unanimous by all of us here that he has that input.
    Senator Alexander. Well, Senator Feinstein, I think we had 
in our bill last year in the Senate, moved ahead with the 
interim site, which you authored, and the--and approval for the 
private site, which the Secretary described in two States. We 
got stuck with the House over an argument about Yucca Mountain 
between the Senate and the House.
    Senator Feinstein. Yes.
    Senator Alexander. And, of course, now we have Senator 
Murkowski with her overall bill on nuclear waste. And my own 
view is that we do agree, but I think we have to resolve this 
year in the Senate, what are we going to do? Are we going to be 
able to move ahead on all tracks at once, which is what I would 
like to do? But that would require breaking the stalemate. So 
it's--the Secretary supports it, but it's up to us to write the 
law in a way that allows it to happen.
    Senator Feinstein. Well, I can only talk for myself, but I 
support just what you've said. I would think Senator Murkowski 
would, as chairman of the Energy Committee as well.
    I wonder if you would care to comment, Senator.
    Senator Murkowski. Well----
    Senator Alexander. Senator Collins, could--could we ask 
Senator Murkowski to comment on this since her bill is----
    Senator Murkowski.
    Senator Murkowski. Well, thank you. And I really appreciate 
that we're having this discussion and the fact that it is very 
public with the Secretary and his team as well.
    I do think that we've got to break this impasse that we 
have been at for years. As I mentioned--and I have had 
conversations with the Secretary--I think there is a very keen 
interest in trying to advance our nuclear opportunities in this 
country, particularly as they reside with advanced nuclear. But 
until we are able to address what we have been held up for so 
long with on the waste side, we are not going to be able to 
make the progress that we need. And so I share the same 
frustration certainly that you do. We do have legislation. I 
think it's time that we re-up it, refresh it, and engage with 
our colleagues over in the House to ensure that we can get it 
over the finish line this time. It is----
    Senator Feinstein. Well, is your committee prepared to pass 
it? Could I just ask that question?
    Senator Murkowski. We are prepared to take up the 
legislation yet again on the authorizing side. And, again, I am 
eager to advance some proposals and some solutions.
    Senator Feinstein. Do you mind if we have a conversation 
briefly with----
    Senator Alexander. Oh, sure, yes.
    Senator Feinstein. We have tried----
    Senator Murkowski. Mm-hmm, years.
    Senator Feinstein [continuing]. And it's been difficult. It 
seems to me that we need to take the bull by the horns and 
pass--I mean, it's great to have you on this committee because 
you're chairman of the Energy Committee and you're the number 
one person in this area. So--and I think both of us--and I 
don't mean to speak for you--are in agreement that we need to 
do this. So why can't we just agree?
    Senator Murkowski. Our challenge has been the tie to Yucca. 
If we can separate Yucca from the interim issues so that we can 
move out on interim storage----
    Senator Feinstein. Are you speaking of the House concern 
now?
    Senator Murkowski. Yes. Well, and I think we do have some 
on our side that are concerned with Yucca, but I think it 
primarily resides in the House with Yucca. But we've got to 
take one step forward, and if we view that interim storage, 
consent-based, just as we have outlined in this legislation 
that we have worked for years now at the recommendation of the 
blue ribbon commission, to me, that's a place where we can get 
to yes with the administration, and we can deal with Yucca, but 
we've got to make a start, and I think if we can make a start 
with the interim, we should do it.
    Senator Feinstein. May I say to the chairman of the Energy 
Committee, we've had these meetings and we've had meetings with 
the House. I think we have to make our statement. We haven't 
been able to come together with a joint agreement thus far that 
I know about at least. But I think we are agreed on this side. 
So it might be helpful for us just to pass something and then 
take that to the House and sit down.
    Senator Alexander. Well, thank you, Senator Feinstein. Of 
course, that's basically what we did last year with the--with 
our Appropriations bill, and the House disagreed with it, so we 
didn't get a result. So I thank the other Senators for giving 
us a little freedom here on time. What I would recommend is 
that Senator Feinstein and I sit down with Senator Murkowski 
and Senator Manchin, who is the ranking Democrat, and Secretary 
Perry in the next couple of weeks, and we develop a plan and we 
move ahead. How would that be?
    Senator Feinstein. That's good.
    Senator Alexander. And then we will let all members of the 
Committee who want to be a part of that jump in with us.
    Senator Murkowski. Thank you.
    Senator Alexander. Thank you.
    Senator Collins, thank you.
    Senator Collins. Thank you, Mr. Chairman.
    Secretary Perry, today, nearly 16,000 megawatts of offshore 
wind capacity and more than 4,000 offshore wind turbines have 
been installed in Europe alone. In comparison, only 30 
megawatts of offshore wind has been installed in our country. 
More important, Europe has charged ahead with the next 
generation of floating offshore wind projects in France, 
Norway, Portugal, and Scotland. France alone has funded four 
floating demonstration projects, and it's about to put out to 
bid commercial floating wind farms.
    The problem is that the United States is falling further 
and further behind in the global race to harness clean, 
renewable offshore wind energy, and yet the irony is within 50 
miles off the U.S. shores, there is enough offshore wind 
capacity to power the country four times over, and nearly 60 
percent of that capacity can be harnessed using floating 
offshore wind technologies. This is an area where a consortium 
led by the University of Maine is leading the way. And I am 
very excited about this possibility.
    I would ask you, Is the Department prioritizing the 
advancement of offshore floating wind turbines as part of its 
domestic innovative clean energy technologies?
    Secretary Perry. Senator, the short answer, is yes, but if 
I could expand on that just a touch. The University of Maine 
Aqua Ventus project has been a very good partner, an integral 
partner with us at DOE, in the advancement of this offshore 
floating platforms in the coastal regions. And it uses a 
really, Senator Coons, this is some of the technology that you 
were talking about, and they have a really unique floating 
platform and very lightweight concrete. I don't want to spend 
too much time about the details here, but this is a really 
fascinating type of innovation. And the university is currently 
in a budget period 2, 5, and I think has received somewhere 
just north of $13 million in funding to date. In 2018, DOE 
supported granting the project a no-cost time extension to 
complete their budget period. They had a couple of milestones 
to make. So, the long story short here is we are very 
supportive.
    And if I could just take a little turn off the road here 
because we were talking about offshore and the great potential 
of offshore, and you mentioned Europe. Fatih Birol, who's the 
head of the International Energy Agency, was in town, 5 weeks 
ago, and he said, ``Secretary, I bring you a present.'' And I 
was like, ``Oh, good. I love presents.'' He said, ``I just want 
you to know that your home State, Texas, just surpassed Europe 
as the percentage of power that is produced in the renewable 
realm.''
    So my point is there are some States out there, yours being 
one of them, Senator Feinstein, that are really moving forward 
on the renewable side, particularly with solar and wind. The 
State of Texas chose to go more heavily on the wind side. And I 
think everything that we can do here to empower States and kind 
of get out of their way, if you will, to go develop these 
alternative sources of energy, whether it's advanced nuclear 
reactors, Mr. Chairman, or whether it's these offshore wind 
platforms, is very wise for us as a country.
    Senator Collins. Thank you. I know my time has expired, so 
I will submit my questions on the Weatherization Program, which 
has a great return for every dollar invested, and my question 
on the role of the Department and driving advanced 
manufacturing for the record.
    Thank you.
    Secretary Perry. Mr. Chairman, can I answer her question?
    Senator Alexander. Yes.
    Secretary Perry. Very briefly, I'll give you my answer on 
the Weatherization Program.
    Senator Collins. Yes.
    Secretary Perry. And this goes back to wearing my 
Governor's hat again. I think the real role, not that the 
dollars don't need to flow, but I don't think the dollars need 
to flow through the Department of Energy and for us to pick 
winners and losers, if you will. I think if we should trust the 
States to run these Weatherization programs.It's kind of the 
argument that we've made historically about block granting on 
some of the Medicaid dollars that would flow back to the 
States. I look at this as the same thing. As a Governor, my 
deal is I really don't need your help, DOE, to decide where 
these dollars can best be spent in my home State.
    Senator Collins. Well, I'm fine with having the money flow 
to the States.
    Secretary Perry. Yes, right.
    Senator Collins. I just want the money to flow.
    Secretary Perry. Yes, ma'am. And then I think it would 
flow----
    Senator Collins. More efficiently.
    Secretary Perry [continuing]. More smoothly and efficiently 
and, frankly, you would get more lead on the target, so to 
speak, if you did it that way instead of sending it through an 
agency of government here in Washington, DC.
    Senator Collins. Thank you.
    Senator Alexander. Thank you, Senator Collins.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    I saw with interest, Mr. Secretary, Chairman Alexander's 
call for a New Manhattan Project for Clean Energy and I talked 
a little bit about that in my opening, which one of the things 
he proposes is to double Federal funding for energy research 
and focus on Ten Grand Challenges for the next 5 years to 
create new sources of cheap and clean energy. Would you and the 
administration support Chairman Alexander's plan to double 
Federal funding on clean energy research and development?
    Secretary Perry. It's certainly a step in the right 
direction. Obviously, without seeing all the crossed T's and 
the dotted I's, I, generally speaking, don't mind going down 
the road with Lamar Alexander.
    [Laughter.]
    Senator Udall. I'm going to stop there and go to another 
question.
    [Laughter.]
    Senator Udall. Last----
    Secretary Perry. He was Governor-trained.
    [Laughter.]
    Senator Udall [continuing]. Last week during--as I 
mentioned, Senator Shelby and I went out to Sandia and Los 
Alamos, and last week during our visit to Sandia, we discussed 
that the Chinese are pursuing a pulsed power capability that 
could be much more powerful than the Z machine at Sandia, 
opening up new physics and the possibility of a technological 
surprise from the Chinese. How concerned is DOE about this 
development? And will you work to include funding for an 
improved Z machine in future budgets?
    Secretary Perry. Senator, obviously, in a host of areas we 
have concerns about what China is doing, whether it's on the 
computing side--let me just leave it at that. There are many 
areas that the Chinese are making some substantial advances in, 
and this inertial confinement fusion program, which the Z 
machine is a part of, is one of those. And this project is 
vital for the radiation effect sciences. And basically what 
that does is it gives us the information that we need on the 
survivability of our nuclear weapons in very hostile radiation 
environments. But to specifically answer your question, the 
President's fiscal year 2020 Budget includes almost 7, excuse 
me, $67 million, I think it's $66.9 million for the Z machine, 
which in this case, is an increase of about $3.8 million over 
fiscal year 2019.
    Senator Udall. Mr. Secretary, you're very familiar with the 
target for Los Alamos, meaning the initial 30-pits-per-year 
emission requirement set out by the Nuclear Weapons Council. 
Are you on track to do that and to do that at Los Alamos?
    Secretary Perry. Yes, sir, we are. And one of the things 
that--you know, and you and I have talked about this----
    Senator Udall. Right.
    Secretary Perry [continuing]. At length, which is a good 
thing. And I try to remind the citizens of this country, and 
particularly the good citizens of New Mexico, that Los Alamos 
National Lab will forever be the pit production center of 
excellence for this country, and that is not going to change. 
The commitment is there.
    I want to say that we're not taking any jobs away from Los 
Alamos. As a matter of fact, we're going to be adding to, 
substantially adding to, the workload. I think over the next 5 
years, the plan is to spend $5 billion.
    Now, we've had this conversation about, does it make sense 
to have that train, if you will, producing those 30 pits and 
then pits 31 through 80 at another site?
    Senator Udall. Yes.
    Secretary Perry. And we've had good conversation. We've 
asked the DOD (Department of Defense) about this. They agree 
that having these two different sites is an appropriate thing. 
And we may not agree on that, Senator, at the end of the day, 
but I want you to know that the Department of Energy will never 
change its focus on Los Alamos from being the pit production 
site of excellence in this country, and the dollars that are 
committed to make that happen are in the plan.
    Senator Udall. Thank you, Mr. Secretary.
    I yield back.
    Senator Alexander. Thank you, Senator Udall.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    And, Mr. Secretary, I appreciated the conversation that you 
had with Senator Collins about the offshore wind. I had an 
opportunity not too many days ago to be out in California, and 
I visited the largest solar facility on our Federal lands. It's 
on BLM lands. This is out in Desert Center. And very impressive 
to see, most certainly, but it was very interesting listening 
to the conversation about what it takes to get sited on Federal 
lands versus on State lands. And so you were recognized and 
very proud, rightly, that your State of Texas is able to do as 
much as they do with solar and with the renewables, and I think 
part of his reality is that it's all private lands out in 
Texas, and they can make it happen. So the struggles that we 
see in permitting these opportunities on our public lands for 
our renewable assets is something that we need to work on, and 
certainly from the Energy Committee's perspective, that's 
something that I want to focus on.
    I want to ask my question to you this afternoon relating to 
the Office of Indian Energy. As you know, it's pretty important 
to the folks back home in Alaska in that it provides some good 
strong technical assistance to a number of our Alaska Native 
communities. The only permanent DOE employees in Alaska, we 
have exactly two in the whole State, two of them work for the 
Office of Indian Energy.
    And, Mr. Chairman, I want to thank you because you continue 
to recognize the importance of the Office of Indian Energy 
throughout the country, and you've provided support.
    But the reason I wanted to raise this with you, Mr. 
Secretary, was that it was brought to my attention that the OIE 
(Office of Indian Energy) has effectively removed all the 
members, all of the Alaska members, from the Indian Country 
Energy and Infrastructure Working Group, this is the ICEIWG. 
There were seven members. And what they do on this working 
group is basically they're the interface. They work on 
collaborating between the government and the Tribal leaders to 
pinpoint what the challenges are what the opportunities are, 
for energy development. And according to OIE's own numbers, and 
we say it all the time, Alaska hosts half of the federally 
recognized Tribes, we've got 227 of them in the State. That's 
roughly half for the entire country, and we don't have anybody 
that is now on this working group. So I'm concerned that with 
the removal of these individuals from this and not having their 
perspective and the perspective of Alaskans is a real concern. 
So I bring this to your attention. I hope we are going to be 
able to resolve this and do it quickly, but I need to bring 
this office to your attention because we really do rely on it, 
and I don't want you to think that this is something that we're 
not focused on.
    Secretary Perry. Senator, when you and I went down to Old 
Harbor and we had the opportunity to interface with the 
citizens down there, it was not lost on me that we need people 
like that on these committees that actually have real-life 
experiences, know what's going on, and hear what the needs are. 
They are not somebody 2,000 miles away or 3,000 miles away that 
may read about it in a book or, look it up online and somehow 
or another think they're an expert. We need real-life 
experience. And I will commit to you that we will make sure 
that we're going to be working with the Tribes and look forward 
to continuing the work that we've done in the past.
    Kevin Frost, who recently became the Director, has worked 
on tribal issues, and I might say the energy landscape as well, 
and I've got full confidence in his ability and to navigate the 
space and lead the office. But your comments are received and 
taken.
    Senator Murkowski. Well, I appreciate the fact that they 
are received and taken, and again would ask for the commitment 
not only from you but from Mr. Frost that we will make sure 
that the Alaska perspective, the Alaska Tribes, are represented 
on this important committee. And we look forward to bringing 
you back up north at any time of your choosing: winter, summer, 
spring, or fall. We welcome you.
    Secretary Perry. Summer is my preference.
    [Laughter.]
    Senator Murkowski. We'll make a date.
    Thank you, Mr. Chairman.
    Senator Alexander. Thank you, Senator Murkowski.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for being here today.
    As I said in my opening statement, I was particularly 
disappointed by the 70-percent cut to the Department of 
Energy's Office of Energy Efficiency and Renewable Energy. 
Energy efficiency, as I'm sure you know, is America's largest 
energy resource, and it's contributed more to our Nation's 
energy needs over the last 40 years than any other fuel source, 
including fossil fuels, oil and gas, and nuclear power, and at 
the same time, it's reduced our national energy bill by an 
estimated $800 billion. It's also the number one job creator 
within the clean energy economy and employs more than 2.3 
million Americans nationwide, the majority of whom work for 
small businesses. These are good paying jobs that contribute to 
our economy.
    So I guess the question that I have is, Can you explain why 
the President's budget takes the position that we should cut 
support for critical energy efficiency and renewable energy 
programs that are creating jobs, that are stimulating the 
economy, that are helping to reduce the energy bills of 
American families and businesses across this country?
    Secretary Perry. Senator, I will do my best here to share 
with you my observation of why I think there is still a 
substantial commitment to EERE, and I think the line item is in 
no way indicative of a lack of support for the renewable energy 
sector. And as you heard me say last year, I've had the good 
fortune to have been an appropriator once upon a time in my 
previous lives and to have been a chief executive, and now I'm 
in this position. So I do respect this process and I will tell 
you that whatever funds you appropriate, that we will handle 
those in an effective and efficient manner.
    But what I'd like to share with you is that DOE has awarded 
over $1.5 billion in EERE funding opportunities, including 
millions of dollars in renewable energy funding in, as a matter 
of fact, each of the States that are represented here around 
the dais. And I can commit to you that we will continue to 
advance and expand our commitment to renewable energy, Senator 
Shaheen. And as a matter of fact, between 2016 and 2018, solar 
generation increased by 90 percent in this country and there is 
some great news about what's going on in the renewable sectors. 
Wind power continues to grow. As a matter of fact, I think that 
we're expecting wind power to exceed hydropower for the first 
time in history this year. So there are some great stories 
going on out there. And finally let me say that my goal is to 
get us to be the number one in solar and wind.
    Senator Shaheen. Well, again, Mr. Secretary, I would 
suggest that there are even more potential benefits from 
focusing on policies that encourage energy efficiency. And I 
would urge you to have the same commitment to energy efficiency 
as you're expressing for solar and wind. And, in fact, Senator 
Collins raised the Weatherization Assistance Program and how 
important that is to families in Maine. It's certainly equally 
important to families in New Hampshire, where our housing 
stock, because it's so old, really benefits from retrofits. And 
there have been some concerns in the last budget cycle about 
the commitment of the Department to get those weatherization 
funds out to States so that they can be used. So can you 
promise me that in fiscal year 2020 that you'll promptly 
deliver the Weatherization Assistance Program guidance 
information so that the programs can be implemented without any 
delays?
    Secretary Perry. I will, yes.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Alexander. Thank you, Senator Shaheen.
    Senator Coons.
    Senator Coons. Thank you, Chairman Alexander.
    And, Secretary Perry, good to be with you again. I just--I 
cannot say how disappointed I am in the DOE budget request this 
year. I am struck by the breadth and severity of proposed cuts 
to programs that I believe are hugely beneficial to this 
country. And, Mr. Secretary, I appreciate your statements that 
there is big progress being made in wind in total generating 
capacity, big progress being made in solar in total generating 
capacity, but that--that reflects previous investments and 
previous developments in new technologies. And as you heard 
from Senator Collins--I'd like to associate myself with her 
remarks--there is huge potential for offshore wind, not just 
off of Maine, off of New Hampshire, off of Delaware, Maryland, 
New Jersey, off the East Coast of the United States. We have 
huge potential for offshore wind. And I agree with Senator 
Shaheen that energy efficiency is in some ways the most--it's 
the lowest cost energy, the energy we don't use.
    I think the idea of an 86-percent cut to the Office of 
Energy Efficiency and Renewable Energy is going in exactly the 
wrong direction at the time the chairman of this committee is 
on the floor of the Senate calling for doubling investment in 
science and research around the great challenges of this 
century, and particularly including renewables.
    So let me ask three questions if I could. First, ARPA-E. 
ARPA-E, since the America COMPETES Act, has demonstrated its 
ability to make a difference. There are 136 R&D projects in the 
private sector now that have secured $2.6 billion--excuse me, 
there are 136 projects that were funded by ARPA-E that 
leveraged another $2.6 billion in private sector dollars. 
There's something like 245 patents issued. ARPA-E I think 
admirably followed the DARPA model of lean, focused, high-
impact investments that translate into private sector 
opportunities and new jobs created.
    I don't see why on Earth you would completely eliminate 
this demonstrated program that I've worked hard to help 
authorize and fund and so have, on a bipartisan basis, many 
others, including this subcommittee's chairman. Why would you 
eliminate ARPA-E? Help me understand that.
    Secretary Perry. Are you ready?
    Senator Coons. Mm-hmm.
    Secretary Perry. As I said in my opening remarks, Senator, 
that I hope we get judged not on the dollars we spend, but on 
the results that we deliver for the American people, and this 
is an example of it. Public-private partnerships are very key 
to what we do, and they are going to continue to be that, and 
while, as a line item, that program may be eliminated within 
the budget, we're still continuing its principles through some 
crosscutting technologies and efforts. For instance, we 
bolstered the Office of Technology Transition with a plus up 
there I think of 7 percent to continue to push our R&D 
successes to the private sector. We also have created the first 
ever Chief Commercialization Officer at the Department to be 
able to coordinate between the different opportunities. And 
just----
    Senator Coons. I appreciate that, Mr. Secretary. I've got a 
minute and a half, so I'm going to get to two other questions.
    Secretary Perry. Yes, sir. All right.
    Senator Coons. If you've got a Chief Commercialization 
Officer, I will look into that and likely champion and 
celebrate.
    Secretary Perry. Yes, sir.
    Senator Coons. If you're doing other technology transfer 
investments, that's likely a good thing.
    Secretary Perry. Yes, sir.
    Senator Coons. ARPA-E has had a unique model and approach 
that I think has proven its effectiveness, and I'm going to 
keep pressing because I think it's worth investing in.
    Secretary Perry. Yes, sir.
    Senator Coons. There is a tax-advantaged financing tool 
called Master Limited Partnerships, well known, I suspect to 
someone familiar with oil and gas and pipelines. Master limited 
partnerships for decades have helped finance the construction, 
the private construction, of pipelines across our country. And 
as a tax-advantaged capital financing tool, they are not 
available to renewables by statute. Senator Murkowski was one 
of my first cosponsors in a bill that would say let's do an 
all-of-the-above strategy. Let's open up MLPs to all forms of 
energy: carbon capture and sequestration, renewable fuels, 
offshore wind, solar and oil and gas and traditional pipelines.
    Your two predecessors have embraced that as a policy 
proposal. What's your view? Do you think opening up MLPs as a 
tax-advantaged vehicle for all forms of energy could be part of 
our strategy for expanding American energy independence?
    Secretary Perry. Yes, here's what I think, is that anything 
that you can do to incentivize a result that you want is a wise 
avenue to go down. And just, for instance, in the State of 
Texas, we had programs where we gave incentives, tax credits on 
the franchise tax to get people to change out of old, 
inefficient power plants and engines. That works. So, whether 
it's this type of approach that you're talking about with 
master limited partnerships or some other type of incentive, I 
would be in favor of that. I, from a chief executive 
standpoint, agree getting people to take particular action by 
incentivizing them makes sense.
    Senator Coons. Thank you. If we can get it into tax law, it 
would be the single biggest new incentive to renewables we 
could provide.
    Last, a number of other Federal agencies have the legal 
authority to have private foundations. So, for example, the 
National Wildlife Federation has a foundation, the National 
Park Service has a foundation, that allows private sector 
partners or foundation and nonprofit partners to invest in 
joint activity. I've got a bill, the IMPACT for Energy Act, 
which would create a foundation for the Department of Energy to 
allow philanthropic individuals or corporations that want to 
partner with the DOE in some of your research and development 
and deployment efforts to partner with the Department. Do you 
see any reason why that is not a good policy?
    Secretary Perry. I know last year we looked at it. The 
Department doesn't currently have an official position on the 
bill. So I understand it would create a nonprofit to support 
private sector investment, and that the foundation would be run 
by aboard to support DOE's efforts. On the surface, Senator, I 
can't see a problem with that.
    Senator Coons. Well, it would be great to have your formal 
input on it. I was just at an event in Delaware where the 
National Wildlife--excuse me--the Fish and Wildlife Service was 
celebrating the fact that their private foundation had allowed 
them to raise matching grants to leverage State and local and 
nonprofit dollars for conservation projects. I think it could 
be a commendable vehicle.
    And I appreciate your forbearance, Mr. Chairman, and 
appreciate your answers today, Mr. Secretary.
    Senator Alexander. Thank you, Senator Coons.
    Senator Murray.
    Senator Murray. Mr. Chairman, thank you so much, and thank 
you for holding this hearing today, and especially thank you 
for your work on the fiscal year 2019 Appropriations bill. I 
really appreciate all you did in that.
    Secretary Perry, let me start, as I always do, with the 
Hanford site in my home State of Washington. I have to say I 
was particularly concerned to see this budget has a proposed 
27-percent cut to the total operations at Richland. You know, 
whether it is getting the high-risk work online at the 
Plutonium Finishing Plant, ensuring the workers' safety that is 
so critical there at the K-Basin, demolition of the 324 
building, there are several cleanup projects underway that 
stand to be significantly harmed by the cuts that you're 
proposing. And there is a laundry list of projects yet to be 
undertaken at RL, not to mention, of course, the Tri-Party 
Agreement milestones that are already in place. What assessment 
has DOE made on the impact that these cuts that you're 
proposing would have on the work at RL and, most importantly, 
worker safety?
    Secretary Perry. Senator, let me answer your last question 
first. There is nothing more important to us than your 
citizens' safety. And from the standpoint of the work that 
we're doing, I have no indication, no information, that would 
provide me with anything other than a positive message about 
the safety and the work that we are doing there.
    In a broader sense, the budget request at Richland 
represents the continued achievement of some really important 
cleanup work that's going on there. I think there are some 
things to celebrate, to point to, and shows some good projects. 
As a matter of fact, when I went out and toured the site, the 
sludge from the K West Basin in that last reactor is going to 
be moved up onto the plateau. I think in the very near future 
that will be finished and that will be the last reactor there. 
These reactors are right along the edge of the Columbia River. 
There is some really important work that's being there. 
Decontamination, decommissioning of the Plutonium Finishing 
Plant is----
    Senator Murray. Well, I understand, but my question is, How 
do these budget cuts help us to get there if we're not 
providing the dollars to finish these projects?
    Secretary Perry. But I think we're making the progress that 
we need to make there.
    Senator Murray. Well, there are Tri-Party Agreement 
milestones that have to be met, and it's pretty clear what the 
dollars are going to be to take it. So I would really 
appreciate if you could take a look at this and come back to us 
exactly how those cuts are going to impact the Tri-Party 
Agreement and these projects.
    Secretary Perry. We'll do it.
    Senator Murray. And let me ask you about the Office of 
River Protection. I know that there is a proposed 50-percent 
cut for construction at the high-level waste facility. I want 
to ask you clearly, Are you going to follow the direction of 
Congress and move forward with a timely completion of the high-
level waste facility?
    Secretary Perry. The short answer is yes. The 2020 budget 
includes funding for looking at alternative waste disposition 
through the Test Bed Initiative as well addresses the increase 
in environmental liability----
    Senator Murray. Right. So I know you have proposals out 
there, but we need transparency on those, we need to have our 
eyes on them. We understand--we need to understand what the 
goals are and not just another commission that puts out a study 
that doesn't accomplish what we need there. So I need to and my 
staff needs to be briefed on what those plans are.
    Secretary Perry. Absolutely, Senator. And I think, just to 
put a fine point on it, I think the funding is sufficient to 
maintain the progress on the consent decree milestones through 
fiscal year 2020, and we'll----
    Senator Murray. Okay. Well, I'd like to see the paperwork 
behind that----
    Secretary Perry. Yes, ma'am.
    Senator Murray [continuing]. Because I find it highly 
doubtful.
    Secretary Perry. Absolutely.
    Senator Murray. I also want to ask you about the national 
labs. You've called them crown jewels, and I know you believe 
that. Last year you told me that some of the proposed cuts to 
EERE and the Office of Science were, ``a difference of line 
items.'' I don't think it's just a difference of line items, I 
think it's a difference of priorities. And these cuts mean that 
labs like PNNL (Pacific Northwest National Laboratory) in 
Washington State would be forced to let go thousands of our 
scientists and engineers. That is a true loss in innovation and 
expertise that could really set us back.
    And, Mr. Chairman, I am really grateful for this 
committee's strong support for EERE programs that support 
critical research and development at our labs. We provided 
$2.37 billion in fiscal year 2019. Your budget actually 
provides a fraction of that, and it's an alarming 85-percent 
cut. That would have significant impact on all of our national 
labs and our universities and our industry partners, and it 
will hurt consumers, too, because EERE, as I'm sure you know, 
makes really a difference in day-to-day efficiencies that help 
do things like keep our families' energy bills low. So maybe 
you can explain to me why your budget proposes such a dramatic 
decrease to these vital programs.
    Secretary Perry. Senator, I think we've already gone over 
this one time, maybe a couple times in here, about the EERE and 
the crosscutting technologies where just because it's not in 
that particular line item doesn't mean that the results that 
we're getting are not being realized. In many of those cases 
they are, and I think one of our big successes has been on 
beyond batteries that, PNNL is going to be one of the 
beneficiaries of as well.
    So let me say this, Mr. Chairman, just in conclusion here, 
which I think is a good way to wrap this up. As I said the last 
time I was in front of this Committee, I recognize how this 
process works, and there may be some areas that we don't 
necessarily agree on, but I'm a really good manager, and 
whatever this Committee decides on and the funding that you 
send to the Department, we will do it in the most efficient, 
effective way that we can, and follow your directions.
    Senator Murray. I take that, as you're not standing a 
thousand million behind your budget cuts. If this committee 
does the right thing it dutifully does, you'll do the right 
thing.
    Secretary Perry. I'm telling you, I'm in the same place I 
was a year ago, Senator----
    Senator Murray. All right. All right. One other thing I 
just wanted to mention.
    Secretary Perry [continuing]. Which was maybe not a giant 
at the door holding back your----
    Senator Murray. Well, thank God we have Congress, I'll just 
say that.
    Secretary Perry. I'm a believer in the appropriations 
process.
    Senator Murray. Okay. Also for the record I just want to 
say I've worked really hard to make sure Bonneville Power 
maintains the flexibility it needs to provide reliable low-cost 
power in the Pacific Northwest, so I do have to say I'm really 
disappointed that your budget doubles down on policies that 
Congress has already rejected. Again, thank you for Congress.
    Secretary Perry. Yes, and----
    Senator Murray. But I, for the record, strongly oppose 
privatizing BPA's transition system----
    Secretary Perry. Yes, ma'am.
    Senator Murray [continuing]. And forcing them to use 
market-based rates. It goes against current law, it hurts our 
families and our businesses, and I don't think DOE should 
dictate how BP operates.
    So, Mr. Chairman, thank you for the great work that you do 
on this committee and for working with us on really important 
ways to make our budget work for people.
    Senator Alexander. Thank you, Senator Murray.
    Secretary Perry. Senator Murray, thank you.
    Senator Alexander. It's a privilege to work with you on 
this and other committees. So--and I'll see you in a few 
minutes.
    [Laughter.]
    Senator Alexander. Senator Hyde-Smith.
    Senator Hyde-Smith. Thank you, Mr. Chairman.
    Good to see you. Thank you for testifying today. Secretary 
Perry, in assessing small refinery exemption applications duly 
enacted law, including the Energy and Water Legislative Branch 
and Military Construction and Veterans Affairs Appropriations 
Act of 2019 directs DOE to follow its 2011 small refinery 
hardship study and look at all the metrics developed for 
determining the impact of the Renewable Fuel Standards on small 
refineries. Can you submit to me that DOE will appropriately 
score all metrics when assessing small refinery RFS hardships 
applications as directed by Congress?
    Secretary Perry. Senator, the short answer is yes. Just for 
the record, as you well know, that is an EPA (Environmental 
Protection Agency) program, and we play a role in the process 
by providing them analysis. And I know that DOE prides itself 
in being professional and absolutely with no bias at all in 
their final recommendations to EPA relative to this. But, 
again, EPA is the exclusive authority on whether to grant a 
small refinery the petition to exempt it from the RFS 
standards. So to answer your question, we will give them timely 
and accurate information to make their analysis.
    Senator Hyde-Smith. Thank you, and I agree with your 
statement.
    I understand there is a significant concern within the 
Department of Energy regarding testing and qualification 
research for filtration technologies at nuclear processing 
facilities, such as the Hanford cleanup site, the next 
generation of containment ventilation technologies, along with 
a trained scientific workforce is critical for the safety of 
this activity moving forward. The Department has expressed a 
strong interest in the need to establish a university-
affiliated research center to advance and fill a void in the 
filtration testing area. Where does the Department stand on 
establishing a center such as this?
    Secretary Perry. Yes. Senator, just let me say we'll work 
with you in any way. We've got some great relationships with a 
lot of universities across the country, and the DOE has got a 
fabulous record of knowing how to do that, and we'll work with 
you any way you see fit.
    Senator Hyde-Smith. Great. I appreciate that.
    And I have no further questions.
    Senator Alexander. Thank you, Senator Hyde-Smith.
    Mr. Secretary, we'll conclude the hearing. Let me, as I'll 
submit my remaining questions for the record, although I would 
like to mention the subjects just to keep them at the top of 
your mind. Many of them I think still are.
    The exascale, we want to make sure that you're on track to 
deliver the first exascale systems in 2021. And you've done a 
good job in this budget, and President Trump, and President 
Obama before him, and the Congresses have done a good job of 
helping us be in a position to lead the world in advanced 
computing, and we want to continue to do that.
    You've heard a lot about ARPA-E. You know my position on 
ARPA-E. And what I would ask you is if we----
    Secretary Perry. I have it tattooed on my pajamas.
    Senator Alexander. Thank you. Yes. So for the third year in 
a row, you zeroed out, and we put it back in. We want you to 
implement it faithfully.
    Secretary Perry. There's nothing like consistency, is 
there, sir?
    Senator Alexander. That's right.
    Advanced reactors, Senator Murkowski is introducing 
legislation soon on the advanced reactors. It has my 
cosponsorship and a number of other Democrats and Republicans. 
I'd like to put a priority on building advanced reactors within 
the next 5 years to show that we can do it as a part of our 
clean energy future.
    You and I have talked before about using our supercomputers 
to help other Federal agencies solve problems. You've talked 
about veterans; I've talked about Medicaid fraud and abuse. I 
hope that's at the top of your mind.
    The nuclear waste stalemate, we had a good discussion back 
and forth with Senator Feinstein, Senator Murkowski, and what I 
hope we can do is--and Feinstein and Murkowski agreed--is to 
have a meeting within the next 2 weeks with them, Senator 
Manchin, and you to talk about how we proceed in the Senate to 
resolve that stalemate, and my feeling is that, speaking as one 
Senator, we need to--we need to decide in the United States 
Senate what we're going to do about Yucca Mountain. We need to 
go ahead and build it or we need to stop acting like we're 
building it.
    The Uranium Processing Facility, we'll continue to work 
with the Department. It's a good example of being on time and 
on budget. And I mentioned earlier our concern about the 
overruns in Hanford. We're not picking on Hanford, I'm just 
suggesting we might do the same thing in Washington State we 
did in Tennessee, which is take a project which seems to be way 
over the budget and get control of it and let's get it done. I 
mean, that's--that's our goal, is to finish the work.
    Isotopes for medical and industrial applications, I'll have 
a question on that.
    I'll have a question on the long-term strategy for our 
fusion project. That's a dream of clean energy. Hopefully we 
can continue to make meaningful progress on that without 
distorting the high-priority items in the budget.
    And then our cybersecurity efforts for the grid, the 
project that your Department initiated in 2014 called 
``Darknet,'' that's of interest to me and to other members of 
our committee, and we want to make sure that we continue with 
that partnership.
    So those are a lot of questions, but they're subjects that 
you and I have discussed before, and I would be grateful if you 
would--if you would give them your attention, and in a timely 
fashion respond to me and to the committee members your 
answers.
    Thanks again for your leadership of the Department. We're 
glad you're in public service and we're glad you're willing to 
use your political and management skills in such a department 
that is vitally important to our country.
    Secretary Perry. Mr. Chairman, thank you. You asked me one 
question that I have not answered yet for you.
    Senator Alexander. Okay. I wish you would.
    Secretary Perry. You asked me about what it was like to 
have a budget that was passed in a timely way and on time. And 
from a chief executive standpoint, you, as a former Governor 
and a university president, understand just how important it is 
from a management standpoint to have the budget done, and I 
want to just please pass on to every member of the Committee 
our great thanks from DOE for the work that you did and to the 
staff. I've been around here long enough now to figure out 
where a lot of the work gets done. So, to yours and Senator 
Feinstein's staff in particular, thank you for being good 
partners in this process and getting the DOE budget passed 
before October 1st. Thank you.
    Senator Alexander. Thank you, Mr. Secretary.
    And I would say to Senator Feinstein's staff as well as 
ours that we appreciate their work with your staff. I mean, 
last year we were able to finish our work ahead of most other 
subcommittees, and as a result, we got passed into law 
earlier----
    Secretary Perry. Yes. It mattered.
    Senator Alexander [continuing]. And you got to be able to 
plan and save taxpayers money and make your plans.
    Secretary Perry. It mattered.
    Senator Alexander. I've had lab, laboratory, directors and 
managers of these billion dollar projects tell me how much 
money we save the taxpayer when we do our job on time here, and 
I thank our staffs for doing that. And Senator Feinstein and I 
will do our best to be able to take our bill to Senator 
McConnell and Senator Shelby and say, ``Let's get on with it. 
Let's do what we did last year.''
    The hearing record will remain open for 10 days. Senators 
may submit additional information or questions for the record 
within that time if they would like. The subcommittee requests 
all responses to questions for the record to be provided within 
30 days of receipt.

                          SUBCOMMITTEE RECESS

    Thank you for being here today. The subcommittee will stand 
adjourned.
    [Whereupon, at 4:24 p.m., Wednesday, March 27, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
